<html>
<title> - GSA ARMY FEE ASSISTANCE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]








                        GSA ARMY FEE ASSISTANCE

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 10, 2015

                               __________

                           Serial No. 114-50

                               __________

Printed for the use of the Committee on Oversight and Government Reform




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










         Available via the World Wide Web: http://www.fdsys.gov
                                      ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-473 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001      
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
                      http://www.house.gov/reform
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
                 David Rapallo, Minority Staff Director
                Katie Bailey, Professional Staff Member
                           Sarah Vance, Clerk
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 10, 2015...............................     1

                               WITNESSES

Ms. Kaela Hensley, Army Spouse
    Oral Statement...............................................     6
    Written Statement............................................     7
Ms. Karmon Dyches, Army Captain Appearing in Personal Capacity
    Oral Statement...............................................     7
    Written Statement............................................     9
The Hon. Carol Fortine Ochoa, Inspector General, U.S. General 
  Services Administration
    Oral Statement...............................................     9
    Written Statement............................................    10
Ms. Stephanie L. Hoehne, Director, Family and Morale, Welfare & 
  Recreation G9, Instalation Management Command, U.S. Army
    Oral Statement...............................................    10
    Written Statement............................................    12
Mr. Gerard Badorrek, Chief Financial Officer, U.S. General 
  Services Administration
    Oral Statement...............................................    12

                                APPENDIX

Statement of Dr. Lynette M. Fraga, Executive Director, Childcare 
  Aware of America..............................................    50
Letter to Mr. Chaffetz from Ms. Hoehne, Director, Family and 
  Morale, Welfare and Recreation G9, Installation Mgmt. Command..    58

 
                        GSA ARMY FEE ASSISTANCE

                              ----------                              


                      Thursday, September 10, 2015

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                           Washington, D.C.
    The committee met, pursuant to call, at 9:02 a.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Mica, Jordan, Amash, 
Meadows, DeSantis, Buck, Walker, Blum, Hice, Russell, Carter, 
Grothman, Hurd, Palmer, Cummings, Norton, Lynch, Connolly, 
Duckworth, Lawrence, Lieu, Plaskett, and DeSaulnier.
    Chairman Chaffetz. Good morning. The Committee on Oversight 
and Government Reform will come to order.
    And, without objection, the chair is authorized to declare 
a recess at any time.
    We thank our witnesses for being here today. We're going to 
be dealing with an important subject, the Army Fee Assistance 
Program that is in disarray. It is, this is a case of outrage 
and mismanagement. We will explore how a well-intentioned 
program created by Congress has been mishandled by the very 
government managers entrusted to administer and care for it. 
The Army Fee Assistance Program, or AFA, compensates eligible 
Army families who pay for third-party childcare off base when 
none is available on base.
    In October 2014, the Army transferred the responsibility 
for administering the program from a private entity, Child Care 
Aware, to the General Services Administration, the GSA. Quality 
of service immediately began to suffer, a substantial backlog 
developed, applications and recertifications were not being 
processed. And, ultimately, payments were not being provided. 
So Army families, nearly 10,000 of them, struggled to pay their 
childcare providers. Desperate for help after payments stopped 
without warning, Army families struggled to break through to 
customer service to get answers.
    Due to insufficient staffing, software, and planning, their 
calls and emails for help literally went unanswered. In fact, 
we're going to hear about how they were destroyed. In addition, 
GSA deleted 4,000 estimated voice messages and an unnumbered 
number of emails.
    In transitioning the program to GSA, the Army made promises 
it couldn't keep. And families were left holding a bill for 
childcare they couldn't pay. Upon announcing the transition in 
January 2014, the Army told families, ``Our goal is to assure a 
seamless transition for our Army families and childcare 
providers.'' It went on as the Army assured families, ``There 
will be no disruptions in payments,'' and that, ``The Childcare 
Fee Assistance Program will continue to be issued monthly.'' 
That was not true. It's not true today. And a lot of families 
have unnecessarily had to finance this and suffer through the 
consequences of it.
    Some of them have been devastating to families who simply 
cannot afford to keep up with the payments. They were told by 
their employer, they were told by the U.S. Government, they 
were told by the United States Army that this would be taken 
care of. They entrusted them. They worked for them. And they 
let them down.
    The transition was riddled with problems that, in turn, 
hurt Army families. This is a quote from one parent 
participating in the program from the State of New York. The 
parent said, ``The GSA Army Childcare Office is 2 months behind 
on payments to my childcare provider. This means I have to pay 
out of pocket for what they aren't covering or I have to remove 
my child from the facility. The childcare provider must still 
be paid whether it is from me or the GSA. I have sent numerous 
emails and placed many phone calls. And there still is no 
solution. I continue to be told I will get a call back. I know 
of at least five other families also affected by this 
incompetence. The program should not be offered to soldiers and 
then continue to be inconsistent with payments. Many of us 
can't afford to keep our children in childcare without this 
assistance. And it has placed a hardship on many of us. I'm 
also pregnant with another child and have placed inquiries with 
questions and no one has answered me at all. This is 
unacceptable and very frustrating to those trying to keep up 
with the payments.''
    We find this to be consistent with what we believe are 
thousands of people going through similar challenges. According 
to the inspector general, the backlog of unprocessed family 
actions and unanswered phone calls and emails is almost 26,000. 
We're not talking about 10 here or 20 there, 26,000. This is 
totally unacceptable. These individuals deserve answers.
    To handle the backlog, GSA sought outside help but botched 
the award of the contract. Given the huge backlog, GSA awarded 
a second contractor to provide additional support to manage the 
program, including 20 additional individuals to fulfill 
requests and field phone calls and emails. Apparently, in a 
rush to throw money at the problem, no one properly vetted the 
individuals hired by the contractors. In reviewing those 20 
individuals, who were given access to personally identifiable 
information of the Army families participating in the program, 
the Office of Personal Management found that 3 of the 20 
contractors should never have been hired. One of the 
individuals even had an outstanding arrest and bench warrant 
pending against them. The other two individuals had severe 
issues, including prior bankruptcy filings and financial liens.
    As part of their normal work duties, these contractors were 
given access to Army families' personal identifiable 
information, including Social Security numbers, birth 
certificates of Army children, tax returns, locations of 
childcare providers, times the children were in childcare, home 
addresses, home phone numbers, bank routing information--for 
people who have an outstanding warrant for their arrest. Also 
highly problematic, the inspector general found these 
individuals were never given the required privacy training, nor 
were they required to sign non-disclosure agreements required 
by the contract.
    One bright spot, once GSA became aware of the compromise of 
some families' information, it did take immediate steps to 
rectify the situation. But it should have never happened. It 
did so by removing these contractors, offering families free 
credit monitoring services, and creating an action plan in 
response to recommendations by the inspector general.
    I'm tired of the U.S. Government just saying hey, we're 
going to give you credit monitoring. That ain't going to cut it 
anymore. We keep doing this by the millions. Tens of millions 
of American workers working for the Federal Government are 
being offered credit services. That ain't going to cut it, and 
here we have another case of this.
    However, the GSA then took a step backward, another 
security breach occurred. In this second instance, GSA failed 
to set appropriate controls and allowed unauthorized users to 
gain access to childcare subsidy information of 8,000 families. 
We'll hear more today from the inspector general about this 
second failure of GSA to protect families.
    Army is considering moving the entire childcare subsidy 
program to the United States Department of Agriculture. 
Obviously it belongs in the Department of Agriculture. But at 
this point, anything seems better than the current situation. 
Another transition could occur as early as December of 2015. 
But for families who are suffering through this now, it doesn't 
sound like an acceptable answer.
    Given the rocky transition to GSA, we need to understand 
how the Army plans to avoid the problems that occurred during 
the prior transition. It is unclear, however, how GSA and the 
Army plans to ensure we won't experience another boondoggle. 
Let me try to put in perspective how bad this is. In announcing 
the transition to the GSA, the Army asserted it would save 50 
percent of program administration costs or $4 million. Sounds 
like a laudable goal. Let's save $4 million. We probably all 
want to do that. In reality, the transition actually increased 
administration costs due to the need to award additional 
contracts in information technology.
    In fact, it cost an extra $4.4 million. So instead of 
saving $4 million, it cost $4.4 million extra, an $8.4 million 
swing. And to put in this perspective, Child Care Aware was 
operating with good software and 39 people and servicing Army 
families with minimal complaints, 39 people. The GSA has 184 
employees, has plans for 37 more contractors, and still isn't 
getting the job done despite spending $4.4 million more than we 
were spending before.
    Our Army families, they sacrifice, they've got to be 
focused on their job. There's a reason why childcare services 
are offered. Many of them are offered on base. But in those 
situations where they're not, we need to be able to take care 
of those children. This is an absolute boondoggle. Desperate 
questions for the GSA in how they could botch this thing. They 
literally are operating on Excel spreadsheets, erasing emails, 
destroying emails, getting rid of voicemails. It's just totally 
and wholly unacceptable. And the Army and their attitude 
towards this is also unacceptable.
    The question, right up to the Secretary's office, what is 
the United States Army going to do about this? We deserve 
better. The soldiers deserve better. And we're here to help fix 
that.
    So with that, I would like to recognize Mr. Lieu. Ranking 
Member Cummings I think will be here a little bit later. But in 
his place, we're honored to have the gentleman from California, 
Mr. Lieu. And we recognize him for 5 minutes.
    Mr. Lieu. Thank you, Mr. Chairman. I commend you for 
calling this important hearing. I want to thank your staff for 
working together in a bipartisan manner to provide oversight 
for a critical program impacting our military families. Having 
served on active duty and as a lieutenant colonel in the Air 
Force Reserves, also as a husband and father of two children, 
this issue has hit particularly close to home.
    The GSA inspector general's report shows that with respect 
to childcare, the Army and the GSA have failed our military 
families. Mismanagement of the Army's program to help military 
families pay for childcare has caused inexcusable backlogs in 
processing payments and unnecessary financial hardships to 
thousands of military families. This program offers subsidies 
to help families pay for childcare when it is not available on 
base. Members of the military and their families sacrifice so 
much for our country. In return, we owe it to them to fight for 
and protect benefits that they rely upon and deserve.
    And as we'll hear from two of our witnesses today, flaws in 
the program's administration have significant consequences for 
military families. Congress created this program on a 
bipartisan basis to help military families afford childcare. So 
it's fitting that our committee is addressing this problem 
jointly. The National Defense Authorization Act for fiscal year 
2000 authorized the Department of Defense to provide financial 
assistance to eligible childcare providers who service military 
and Federal employees. Those subsidies allow military families 
to save money on childcare costs.
    Prior to 2014, the program was jointly administered by the 
GSA and Child Care Aware of America, a non-profit organization 
helping families identify high-quality, affordable child care. 
GSA and CCA administered different components of the program, 
with GSA having responsibility for approximately 200 families 
and CCA servicing nearly 9,000 families. In 2014, the Army 
consolidated the program's administration under GSA which 
promised annual savings of $4 million. But this deal proved too 
good to be true.
    After assuming full responsibility for the program on 
October 1, 2014, GSA realized it had grossly underestimated the 
complexity and scope of the personnel and IT infrastructure 
needed to administer childcare subsidies for an additional 
9,000 families. I have here a statement from Child Care Aware 
of America, the previous administrator of the contract. In 
January 2014, they were processing subsidy payments for all of 
their program participants within the Army's required 10-day 
period. This is in contrast to GSA, which is now responsible 
for the program, and whose own IG reported earlier this week 
that GSA was taking up to 7 months to process the payments. Mr. 
Chairman, I ask unanimous consent that the CCA statement be 
entered into the record.
    Chairman Chaffetz. Without objection, so ordered.
    Mr. Lieu. According to a previous report by the IG this 
past April, by January 2015, GSA had developed a significant 
backlog over 11,500 childcare subsidy actionable items awaiting 
processing.
    On Tuesday, the IG issued an updated report finding that 
GSA officials had not noticed since 2011, ``GSA's existing 
processes and personnel could not support a 9,000 family 
growth.'' The report also found that prior to the transfer, 
GSA, quote, ``did not perform a full needs assessment to 
determine what IT systems were necessary to accommodate the 45-
fold increase.'' As a result of those transition planning 
deficiencies, the Army has had to spend, as the chairman noted, 
an additional $4.4 million to keep the program afloat above and 
beyond the original $4 million contract price.
    And because a significant backlog persists and continues to 
grow, additional funding will likely be needed to correct the 
serious flaws in the program's administration. In addition to 
GSA's shortcomings, there was, at a minimum, inadequate Army 
oversight of the program's transition planning and 
implementation and perhaps a lack of due diligence in selecting 
GSA as the sole program administrator.
    We'll hear from Stephanie Hoehne, the top management for 
the Army's program, who said in her written statement, ``The 
Army did not provide sufficient oversight to the transition for 
the risk involved nor recognize the magnitude once the problems 
surfaced.'' Going forward, the Army and GSA must immediately 
identify and implement concrete measures to correct these 
serious flaws.
    GSA as a program administrator and the Army as a program 
owner share responsibility for ensuring the successful 
operation of the Childcare Fee Assistance Program. Together 
they must take steps to eliminate the current backlog so that 
our military families do not needlessly face financial 
hardships to pay for childcare.
    I look forward to hearing for a timetable today to show how 
they plan to fix this program. As we learned from the IG's 
recent report, one family is now filing for bankruptcy as a 
result of subsidy payment delays. And that's entirely 
unacceptable. It's also unacceptable that the IG report's 
findings show that thousands of emails and voicemails from 
military personnel was simply deleted by GSA.
    Our Nation's families deserve better. And it's my hope that 
by continuing working in a bipartisan manner, we can help get 
this program back on track. Thank you, Mr. Chairman.
    Chairman Chaffetz. Thank the gentleman.
    Chairman Chaffetz. I'll hold the record open for 5 
legislative days for any members who would like to submit a 
written statement.
    Chairman Chaffetz. We're now going to recognize our first 
panel of witnesses. Our first witness is Ms. Kaela Hensley, an 
Army spouse from Fort Meade, Maryland. My understanding is she 
has a young daughter who is 2 years old who has been engaged in 
this program. And she's never testified before Congress. We're 
honored and privileged to have you here. And we look forward to 
hearing your personal story.
    We're also joined by Captain Karmon Dyches, a research 
psychologist at the Center for Military Psychiatry and 
Neuroscience at the Walter Reed Army Institute of Research. Let 
the record reflect that Ms. Dyches is appearing in her personal 
capacity. My understanding is she too has a 2 year-old daughter 
who is engaged in this program. And I don't believe she has 
ever testified before Congress. We look forward to hearing from 
Captain Dyches as well.
    We also have the Honorable Carol Fortine Ochoa, inspector 
general for the General Services Administration, recently 
confirmed by the U.S. Senate after an extensive process. Sorry 
that process takes so long over in the Senate. This is your 
first testimony before Congress I believe as the Senate-
confirmed inspector general. So we're honored to have you here 
and learn of your perspective and the good work that so many of 
the people in your organization have done to get us to this 
point.
    We also have Ms. Stephanie Hoehne, director of Family and 
Morale, Welfare and Recreation, G9 Installation Management 
Command for the United States Army.
    And Mr. Gerard Badorrek--did I pronounce that properly? I 
hope so--chief financial officer for the General Services 
Administration. We welcome you all.
    Pursuant to committee rules, all witnesses are to be sworn 
before they testify. So if you will please rise and raise your 
right hand.
    Do you solemnly swear or affirm that the testimony you're 
about to give will be the truth, the whole truth, and nothing 
but the truth? Thank you. Please be seated.
    Let the record reflect that all witnesses answered in the 
affirmative.
    In order to allow time for discussion, we would appreciate 
if you would limit your verbal comments to 5 minutes. Your 
entire written statement will be entered into the record. It 
can be a very brief statement. But we want to give you a chance 
to each kind of briefly tell your story and give your 
perspective. And then at the conclusion of that, then we'll get 
to the question and answer portion of it. And Ms. Hensley, we 
now recognize you for 5 minutes.

                       WITNESS STATEMENTS

                   STATEMENT OF KAELA HENSLEY

    Ms. Hensley. Good morning, Chairman Chaffetz, Mr. Lieu, and 
other distinguished members of the committee. Thank you for 
giving us the opportunity to speak about our experience with 
General Services Administration's handling of the Army Fee 
Assistance Program.
    I am a veterinary technician and my husband has served the 
U.S. Army for 11 years. When I finished school, I took on a new 
job as a vet tech. We tried to enroll our daughter into on-post 
child development center. That's when we were informed the wait 
list would take a year which meant AFA was our only option. My 
husband and I never imagined the stress, the sleepless nights 
and tears you would have to endure because of this decision. 
Pinching pennies to make ends meet and feeling as a parent you 
have failed your child because you're unable to provide them 
with the basic essential things such as proper education, food, 
diapers, and clothing.
    Have you ever had to make the decision whether you should 
fill your gas tank up or buy bread for your family? These were 
the types of decisions GSA forced my husband and I to make. We 
went as far as canceling our cable subscription and switching 
cell phone provider just to have a couple more dollars in our 
bank account. We even used money from our savings to help pay 
for daycare, money that was supposed to be going towards 
purchasing a home. When our savings was no longer an option, my 
husband was placed in a humiliating position when he had to ask 
his parents for money.
    Because of GSA, I was within 2 days of submitting my 2 
weeks' notice and removing our daughter from daycare. My 
husband and I made it through the 4 months of financial 
hardship. We were fortunate enough to have family who could 
help us in this trying time. But as for other thousands of 
families who were and probably still are going through this, 
might not be as fortunate. We cannot be alone in this struggle. 
Other Army families are likely experiencing similar or even 
worse hardship.
    I hope after today, we will have that peace of mind knowing 
someone is listening and ready to take action on this matter. 
Thank you for the opportunity to speak before you.
    Chairman Chaffetz. Thank you.
    [Prepared statement of Ms. Hensley follows:]
    [For complete submitted testimony, please see the following 
website: https://oversight.house.gov/hearing/gsa-army-fee-
assistance]
    Chairman Chaffetz. Captain Dyches, you are now recognized.


                   STATEMENT OF KARMON DYCHES

    Ms. Dyches. Chairman Chaffetz, Mr. Lieu, and other 
distinguished members of the committee, thank you for the 
invitation and the opportunity to appear before you today to 
discuss the General Service Administration's management of the 
Army Fee Assistance Program.
    My name is Karmon Dyches. And while I am a captain in the 
United States Army stationed at the Walter Reed Army Institute 
of Research in Silver Spring, Maryland, I am here today in a 
personal capacity. And, as such, these views are my own and do 
not represent the position of the Walter Reed Army Institute of 
Research, the U.S. Army, or the Department of Defense. My 
husband is also a member of the U.S. Army. We live in Laurel, 
Maryland with our 2 year-old child who attends a privately-
owned daycare in the town in which we reside.
    The purpose of the AFA Program is to provide a subsidized 
alternate daycare option to Army families who are 
geographically dislocated from on-post daycare or in the event 
there is a long wait list for an on-post daycare. My family 
falls not into just one but both of these categories.
    The U.S. Army does a tremendous job taking care of their 
soldiers and their civilians. The AFA Program is just one of 
many examples of an Army program designed to help families 
build and plan for their futures. However, as you have read in 
my written statement, my family's childcare provider has 
experienced delays in payments and recertification due to the 
mismanagement of the AFA Program by the GSA.
    What I would like to convey to you now are the specific and 
lasting impacts this mismanagement has caused. My husband's end 
of time of service date is approaching. It would be beneficial 
for both of us to move closer to his new job location and 
closer to my current duty station. However, due to the AFA 
mismanagement by the GSA, we are actually afraid of moving our 
daughter to a different daycare. We fear that a new provider 
won't be as forgiving and understanding as our current provider 
is about the delays in payment. And we fear that a new packet 
won't ever be approved, as it took 10 months to simply 
recertify an existing packet.
    We also happen to have a great relationship with our 
childcare provider. However, if that weren't the case and we 
felt we should move our daughter for personal or even safety 
concerns, we would actually have to decide between leaving her 
there or undoubtedly paying for full-time daycare elsewhere 
until a new packet was approved. This is unacceptable. Those 
who serve our country make many sacrifices. But we absolutely 
should not have to sacrifice the health and the safety of our 
children while serving the United States of America.
    Again, my husband and I are a dual military couple. Daycare 
isn't a choice, it's a requirement. Additionally, my husband 
and I have had to delay having a second child due to the fact 
that we cannot afford to pay for daycare for two children given 
the current issues we are facing right now. If the GSA were not 
mishandling this very critical Army program, we would regain 
the freedom to plan for our future. Army Fee Assistance 
families have to know when this will end. How can anyone plan 
for a future without knowing what that future will likely cost?
    Furthermore, if I said that the GSA's mishandling of the 
AFA Program has had no impact on my professional life, I 
wouldn't be telling the truth. I have on many occasions put the 
mission aside to proactively attempt to figure out why our 
packet wasn't being reviewed or why our childcare provider 
wasn't being paid. Due to frustration and financial burdens, I 
have wept alone at my desk, talked at length with close battle 
buddies, and even described our struggles with the GSA to my 
chain of command. Everyone has been extremely supportive. But, 
in the end, there isn't anything they can do to fix this. 
However, with your help, I believe a resolution is possible.
    In short and in my opinion, the GSA has failed to uphold 
its promise to Army families. There no longer seems to be 
accountability to ensure soldiers are not encountering extra 
burdens or unexpected costs associated with child care. The GSA 
has failed to allow soldiers to plan not only for long-term 
goals, but for immediate needs. Given the difficulty my own 
family has had with the GSA's mishandling of the AFA Program, 
it's not hard to imagine what other Army families have gone 
through.
    Imagine not being able to afford groceries or gas because 
you had to paid for unexpected childcare costs. Imagine being a 
new mother or father and being forced to choose between 
maintaining a new career or to quit working because the 
unexpected cost of daycare is more than your monthly paycheck. 
Imagine having your child kicked out of daycare because your 
childcare provider had their own bills to pay and needed to 
work with a more reliable family. Imagine dealing with all of 
that while your spouse is deployed.
    Now imagine being that deployed mother or father and 
getting those monthly phone calls from home about these issues 
and tell me if you think that your mind would actually be on 
the mission. Thank you for your time and for your service.
    Chairman Chaffetz. Thank you.
    [Prepared statement of Ms. Dyches follows:]
    [For complete submitted testimony, please see the following 
website: https://oversight.house.gov/hearing/gsa-army-fee-
assistance]
    Chairman Chaffetz. Ms. Ochoa, you're now recognized for 5 
minutes.

         STATEMENT OF THE HONORABLE CAROL FORTINE OCHOA

    Ms. Ochoa. Good morning, Mr. Chairman, Mr. Lieu, and 
members of the committee.
    Thank you for the opportunity to testify about the office 
of the inspector general's report concerning GSA's handling of 
the Army childcare subsidy program or AFA.
    Problems in the GSA's administration of the program are 
significantly affecting Army families. Starting in 2003, GSA 
administered the subsidy program for approximately 200 Army 
families whose children were enrolled exclusively in Federal 
childcare centers. In April 2014, GSA agreed to expand its 
administration of the Army program to include Army families 
enrolled in private childcare centers as well. This added over 
9,000 families and 5,000 childcare providers to the program.
    GSA administers the program based on Army requirements. 
Army families must provide documentation showing their 
eligibility for the program. And providers must show they are 
licensed and qualified to provide the care. While a family 
awaits approval of their subsidy application, they must pay all 
childcare costs up front.
    The OIG's evaluation of this program began in February of 
this year after GSA's current administrator reported to us 
serious concerns about the program, including a backlog then of 
over 5,000 items. Our report found that from the beginning of 
GSA's administration of the expanded program in August 2014, 
through the end of July 2015, the program experienced 
continually increasing backlogs of unprocessed subsidy 
requests, unpaid invoices, and unreturned calls and emails.
    We found that the primary cause of the increased backlogs 
was GSA's failure to plan adequately for the expansion. GSA 
officials were on notice well before implementation of the 
expanded program that it would add over 9,000 families and that 
GSA's existing processes and personnel could not support such 
growth. Yet, GSA failed to streamline processes and scale up 
staffing levels in advance of the expansion.
    At the start of the expanded program, staffing levels were 
far too low, staff lacked appropriate privacy training and 
security screening, and the IT systems for the program were 
inadequate and incompatible. Program personnel were soon 
overwhelmed by the massive increase in workload, and the 
backlogs began to mount. We found that GSA's efforts to gain 
control of the backlogs have included hiring additional 
personnel, changing its case management process, and adding 
software applications with additional funding from the Army. 
Despite these efforts, by the end of July, the backlog had 
grown to nearly 26,000 unprocessed subsidy actions, unpaid 
invoices, unreturned emails, and unreturned phone messages.
    Army families enrolled in this program have experienced 
inadequate customer service and substantial delays. Their phone 
calls went unanswered. Their voice messages and emails were 
ignored and deleted. Families have reported severe financial 
and other hardships resulting from these delays. For example, 
Army families reported being forced to consider having a spouse 
quit a job or quit school in order to leave one parent at home 
with their children. One family reported that their provider 
had sent their account to collections. Another, that they were 
facing bankruptcy.
    In addition, Army families' sensitive information was 
provided to contractors before they had completed required 
background investigations. The sensitive information included 
Social Security numbers, dates of birth, and bank routing 
information, among other things. Despite GSA's effort to secure 
that security access breach, other breaches have since 
occurred.
    The Army childcare subsidy program was intended to be 
included as a part of the transfer of GSA's financial 
management line of business to the U.S. Department of 
Agriculture. As of July 31, the planned transfer of the program 
to the Department of Agriculture has been placed on hold.
    The OIG makes two recommendations in its report. First, 
assuming that Army decides to keep GSA in charge of this 
program, we recommend that GSA work with the Army to form a 
plan to eliminate the backlog, achieve customer service 
timelines that are satisfactory to the Army, and ensure the 
security of Army families' sensitive information.
    We also recommend that to avoid yet further disruption to 
Army families in the event this program is transferred 
elsewhere, GSA should obtain Army agreement and the 
transferee's agreement on conditions for program transfer.
    Thank you for the opportunity to testify about this matter 
and for the committee's support of inspectors general. I ask 
that my testimony and the OIG's report be made part of this 
record. And I would be happy to take any questions the 
committee may have.
    Chairman Chaffetz. Thank you. The entire written statement 
and record will be made part of the record.
    [Prepared statement of Ms. Ochoa follows:]
    [For complete submitted testimony, please see the following 
website: https://oversight.house.gov/hearing/gsa-army-fee-
assistance]
    Chairman Chaffetz. Ms. Hoehne, you're now recognized for 5 
minutes.


                STATEMENT OF STEPHANIE L. HOEHNE

    Ms. Hoehne. Good morning, Chairman Chaffetz, Mr. Lieu, and 
other distinguished members of the committee.
    I'm Stephanie Hoehne, the director of Installation 
Management Command's G9, Family Morale, Welfare, and 
Recreation. The Army's FMWR Program operates and is responsible 
for about $2.4 billion in programs across the Army, with more 
than 25,000 employees worldwide.
    I've been working in government service for over 37 years, 
the first almost 27, in uniform, the last 10, as an Army senior 
executive. Thank you for your invitation to appear and explain 
how we plan to restore the Army's Fee Assistance Program and 
regain the confidence of our Army families and their childcare 
providers.
    As you noted, sir, Army families rely on quality childcare 
as a part of their support network. It is a critical enabler 
for sustained readiness. The Army provides more than 200 
childcare centers on installations and provides fee assistance 
for families who do not have access to on-post childcare 
facilities. The Army Fee Assistance Program pays community 
providers the difference between their rates and what would be 
charged at an on-post facility.
    From August to October 2014, as a cost-saving measure, the 
Army transferred administration of all of the Army Fee 
Assistance Programs to GSA. We expected to save $4 to $5 
million in overhead administrative costs while keeping the same 
level of service. It was a logical choice at the time given the 
fiscal constraints we were under. However, as a customer 
service organization charged with taking care of soldiers and 
families in a timely and responsive manner, we did not 
adequately assess the risk involved, nor did we take effective 
mitigation measures fast enough to ensure we provided the level 
of service our families deserve. In this, we let our families 
down, and we violated our own culture of customer service.
    In November of 2014, a month after we initiated the 
transfer, we became aware of late payments. But it was not 
until February that we truly understood the magnitude of the 
problem. We should have had better control measures to act 
sooner. Since February, we've undertaken a number of steps to 
improve the backlog in the service. And we've provided 
additional funding, more staffing, more oversight, improved 
automation of the application process.
    We actually began to see reductions in the backlog. But 
after the release of the GSA IG management alert report, 
detailing the PII problems at the end of April, the backlog 
returned. And in May and June, it continued to grow. We set up 
a link on our Web site notifying parents and providers who were 
expecting delays or problems with applications to let us know. 
And we have directly engaged and resolved hundreds of issues.
    Throughout this entire period, we have been working side by 
side with GSA. Last month, we once again began to see a 
reduction in backlog as we continue to seek more process 
improvements. Close supervision and oversight of GSA 
performance is ongoing. And we will continue to deploy a 
subject matter expert weekly to ensure that they make progress.
    The Army can and will do better. While we continue to work 
with GSA to reduce the backlog by December, we expect the 
program to be at a sustainable level. We've learned some 
valuable lessons throughout this process. We've developed 
improved metrics, tighter management controls, clearer 
communication to our soldiers and families, and are in the 
process of streamlining the entire program. We are also in the 
process of transitioning the program to a contractor who has 
demonstrated the capability to handle it.
    This issue is personal to me. As a career soldier, one of 
my greatest stressors throughout my career was finding and 
keeping reliable childcare every time we moved. I appreciate 
what our families are facing and am personally committed to 
fixing the Fee Assistance Program as soon as possible. Thank 
you again for this invitation. And I look forward to your 
questions.
    Chairman Chaffetz. Thank you.
    [Prepared statement of Ms. Hoehne follows:]
    [For complete submitted testimony, please see the following 
website: https://oversight.house.gov/hearing/gsa-army-fee-
assistance]
    Chairman Chaffetz. Mr. Badorrek, you're now recognized for 
5 minutes.

                  STATEMENT OF GERARD BADORREK

    Mr. Badorrek. Thank you. Good morning, Chairman Chaffetz, 
Mr. Lieu, and members of the committee. My name is Gerard 
Badorrek. And I am the chief financial officer of the General 
Services Administration.
    Chairman Chaffetz. Could you move that microphone just a 
bit closer? It's not picking up as much as we want it to.
    Mr. Badorrek. My name is Gerard Badorrek. And I'm the chief 
financial officer of the General Services Administration. I 
have been GSA's chief financial officer since December 29, 
2014. Before coming to GSA, I spent nearly 30 years in the 
private sector at companies such as MCI and Xerox.
    As you are aware, GSA has been delivering Army Fee 
Assistance financial services for more than 10 years. And last 
year, GSA significantly expanded its role. GSA went from 
managing the childcare program for 200 Army families to over 
9,000 families and from 46 childcare providers to over 6,000. 
Unfortunately, GSA was not adequately prepared and encountered 
major challenges at the outset. Simply put, GSA failed in 
providing the kind of service and level of service that Army 
families deserve.
    GSA shares the committee's concern for the welfare of our 
military families and understands it is critically important 
that we improve the operations of this program. That's why on 
behalf of the GSA's entire leadership team, I want to apologize 
to the two families represented here today and all of the Army 
families who have suffered frustrations and financial 
hardships. Our Army families deserve better. And we are 
committed to getting this program on the right track.
    I would like to thank GSA's Office of the Inspector General 
for its assistance. We appreciate the inspector general's 
partnership in evaluating this program and providing 
recommendations to help us address the significant challenges 
that GSA has faced in this program. I became aware of the 
problems with the program shortly after starting at GSA. Due to 
weak planning and a poor transition from the prior vendor, 
there was already a large backlog by January 2015.
    After my initial assessment, I believed there were three 
key challenges that we needed to address immediately. 
Complexity and a lack of clarity in the family application 
process, an inadequate IT system, and lack of capacity needed 
to keep up with applications resulting from serious 
understaffing and associated productivity challenges.
    GSA made changes to our childcare Web site immediately to 
make the application process clearer and has worked with the 
Army to streamline and simplify the application payment 
processes. We've implemented an appropriate IT solution for 
application processing. And we've worked to address staffing 
shortages. We've also implemented process changes to improve 
productivity and are working to make the program more 
transparent.
    Unfortunately, because of the size of the backlog already 
in place and the time needed to make some of these changes, the 
turnaround is taking longer to realize than I would have liked. 
I understand that our overall backlog of actions and their 
impact on families is truly unacceptable and we have serious 
work to do. GSA will continue to work diligently to move 
applicants through the entire process so the families get the 
service they deserve. We are striving every day to increase the 
number of phone calls answered, invoices paid, and applications 
completed, and our efforts to increase staffing are beginning 
to convey positive results.
    GSA has implemented a path forward that addresses our 
flawed assumptions regarding the resources necessary to handle 
a program of this size and scope. We will continue to augment 
and adjust resources as appropriate throughout the program to 
continue to progress in eliminating backlogged applications. We 
have developed metrics and bench marks to get us to a steady 
state by the end of the calendar year. We at GSA----
    Mr. Lynch. Mr. Badorrek, could you move that microphone 
closer to you? I'm having a really hard time hearing you.
    Chairman Chaffetz. You can straighten it out and bring it 
closer. There you go.
    Mr. Badorrek. All right. I'm about to end. Do you want me 
to finish?
    Chairman Chaffetz. Just keep going where you are.
    Mr. Badorrek. Okay. Okay. I understand that our overall 
backlog of actions and their impact on families is unacceptable 
and we have serious work to do. GSA will continue to work 
diligently to move applicants through the entire process so the 
families get the service they deserve.
    We are striving every day to increase the number of phone 
calls answered, invoices paid, and applications completed. And 
our efforts to increase staffing are beginning to convey 
positive results. GSA has implemented a path forward that 
addresses our flawed assumptions regarding the resources 
necessary.
    We will continue to augment and adjust resources as 
appropriate throughout the program to continue to progress in 
eliminating backlogged applications. We have developed metrics 
and benchmarks to get us to steady state by the end of the 
calendar year. We at GSA share your dismay at the continued 
application and payment backlog that has caused hardship for 
our men and women in uniform and their families.
    Again, I want to apologize on behalf of GSA. Army families 
deserve better. GSA is committed to staying the course of our 
corrective actions and ensuring this program is put on track. 
GSA appreciates your interest in and oversight of this 
important program. And I'll be happy to answer any of your 
questions.
    Chairman Chaffetz. Thank you.
    Chairman Chaffetz. I now recognize myself for 5 minutes. 
Mr. Badorrek, how many voicemails were destroyed?
    Mr. Badorrek. First of all, let me say that voicemails 
should not be destroyed.
    Chairman Chaffetz. But they were.
    Mr. Badorrek. There were 4,000 reported by the IG. Let me 
tell you what----
    Chairman Chaffetz. Okay. So 4,000. How many emails were 
destroyed?
    Mr. Badorrek. I do not know.
    Chairman Chaffetz. There were thousands of them 
potentially, correct?
    Mr. Badorrek. I believe we have processed, that have all 
the applications that are there. I do not----
    Chairman Chaffetz. The IG found that there were emails that 
were destroyed, simply deleted. Is that your understanding, yes 
or no?
    Mr. Badorrek. I do not believe that any----
    Chairman Chaffetz. Ms. Ochoa, did they destroy emails? Use 
your microphone. Move it close. Push the button.
    Ms. Ochoa. Yes. The IG found that emails and voicemails 
were deleted.
    Chairman Chaffetz. How many emails were destroyed?
    Ms. Ochoa. We do not have that number. And I don't know if 
GSA has the number.
    Chairman Chaffetz. Mr. Badorrek, do you believe her? Were 
emails destroyed?
    Mr. Badorrek. I do not know if emails were destroyed. They 
should not have been destroyed if they were. They certainly 
should not have been destroyed until we had processed the 
applications.
    Chairman Chaffetz. We tend to believe the inspector general 
more than we believe you at this point.
    Mr. Badorrek. I understand.
    Chairman Chaffetz. Do you believe that an email or a 
voicemail is a Federal record?
    Mr. Badorrek. Yes. They should not be destroyed.
    Chairman Chaffetz. If it is a Federal record, the Federal 
law requires that the head of the Federal agency to notify the 
archivist if they are improperly destroyed. Did the GSA notify 
the archivist that the records were destroyed?
    Mr. Badorrek. No. We did not.
    Chairman Chaffetz. Why not?
    Mr. Badorrek. I just learned that the voicemails were 
destroyed. We have records----
    Chairman Chaffetz. When did you learn that? When did you 
learn that?
    Mr. Badorrek. I learned it as part of the IG report.
    Chairman Chaffetz. Which was issued when?
    Mr. Badorrek. Issued this week.
    Chairman Chaffetz. Was it in a previous report? Ms. Ochoa?
    Ms. Ochoa. I think the management alert addressed the 
backlogs and the sensitive information breach and not the 
deletions and purging of voicemails and emails.
    Chairman Chaffetz. Ms. Hoehne, how do you rate the Army's 
oversight of the transition? If you gave it a letter grade, 
what would you give it?
    Ms. Hoehne. Sir, at this point, I would give it a D.
    Chairman Chaffetz. So what are you going to do to make it 
right?
    Ms. Hoehne. Sir, we've put in a number of oversight 
metrics.
    Chairman Chaffetz. Okay. Oversight metrics. I'm talking to 
Captain Dyches and Ms. Hensley here. What are you going to do 
to make their life right?
    Ms. Hoehne. What we have done so far, sir, is several 
critical things. We have identified some things we can do 
quickly to speed up the application process for families and--
--
    Chairman Chaffetz. Okay. They already had an application 
and you failed, you failed to have it processed. I'm talking 
about the thousands of Army families, men and women, who have 
got young children, these two women have two 2 year-olds, what 
are you going to do to make their life right?
    Ms. Hoehne. Sir, we're working to speed up the process----
    Chairman Chaffetz. That ain't good enough.
    Ms. Hoehne. We are also working to move the entire program 
back where it belongs.
    Chairman Chaffetz. Which is where?
    Ms. Hoehne. To a contractor who has experience and knows 
how to do it.
    Chairman Chaffetz. I still would love at some point an 
answer as to what you're going to do to rectify the families 
who--you've destroyed credit ratings, you've destroyed 
families. Some people are filing, we heard testimony that 
they're filing bankruptcy.
    Ms. Hoehne. Yes, sir.
    Chairman Chaffetz. We'll need to come back to that in 
greater detail. I still don't understand why Child Care Aware, 
which could operate with less than 40 people, you throw 184 
contractors at it, they still can't get it done. And the answer 
is well, we're going to pour more people at that problem. It is 
pretty stunning that we get to that.
    We were told by multiple sources that the Army may have 
invested $3 million in developing a software used by the 
previous providers. Is that true?
    Ms. Hoehne. Sir, I don't have----
    Mr. Chaffetz. How much money did you spend of the software?
    Ms. Hoehne. My understanding is yes, we did invest in 
providing a software capability for the previous provider.
    Chairman Chaffetz. How much money was that?
    Ms. Hoehne. Sir, I don't have that answer----
    Chairman Chaffetz. Was it $3 million?
    Ms. Hoehne. Sir, I don't know. I'll have to take that for 
the record.
    Chairman Chaffetz. And you'll get that back to us?
    Ms. Hoehne. Yes, sir.
    Chairman Chaffetz. My understanding is that--when did you 
first--when did you read the--the GSA inspector general issued 
a report in April of 2015. When did you read that?
    Ms. Hoehne. Sir, I read the initial management report 
within the week that it was issued.
    Chairman Chaffetz. You told our, in a bipartisan way, in 
our staff meeting, during an August 18 briefing, you told the 
committee staff that you admitted that you didn't read the 
April 2015 IG report. Is that true?
    Ms. Hoehne. Sir, I misunderstood the question at the time. 
I realized that was a management alert. I did not realize that 
they were referring to that as the IG report. I had read the 
management alert.
    Chairman Chaffetz. From the inspector general, correct?
    Ms. Hoehne. From the inspector general. However, I was 
thinking there was a follow-on report that I had not gotten my 
hands on yet, not realizing----
    Chairman Chaffetz. So you said that you read it within the 
week. What did you do?
    Ms. Hoehne. We were already in the process of taking 
corrective action, sir.
    Chairman Chaffetz. And what the IG found, correct, Ms. 
Ochoa, what happened in the meantime? What happened to the 
backlog?
    Ms. Ochoa. The backlog continued to increase while we were 
evaluating----
    Chairman Chaffetz. It doubled. It doubled. And you're here 
to tell us, you have the gall to tell us that you're actually 
reducing the backlog after it more than doubled? What's the 
backlog now?
    Ms. Hoehne. Sir, as we measure the backlog, it is 6,000 
family actions and 9,100 unpaid invoices to providers.
    Chairman Chaffetz. And we have at least 4,000 emails or 
voicemails destroyed and an untold number of emails that were 
destroyed. I think the seminal question, one of the big 
questions we have for you, how are you going to make Captain 
Dyches' life and Ms. Hensley's life and the thousands of other 
Army families, what are you going to do to make them whole?
    Ms. Hoehne. Sir, one of the things that we've done is 
alerted Army Emergency Relief. And they are mobilizing to 
provide financial assistance to families that are being 
adversely affected by this situation.
    Chairman Chaffetz. If you're affected by this, when do you 
expect to hear from them?
    Ms. Hoehne. They have put out the alert to all of the 
installations, their offices at all of the installations. And 
we are putting the word out through the chain of command, as 
well as posting on our Web site that families that are 
suffering financially as a result of this situation are 
eligible for help from Army Emergency Relief.
    Chairman Chaffetz. Captain Dyches, Ms. Hensley, what have 
you heard from the United States Army?
    Ms. Dyches. Sir, I have not gotten that notification from 
that channel. My own command offered that to me when they 
learned of our issues and offered emergency, Army Emergency 
Relief to us. However, it seems like borrowing money that 
should already be there. Because you do have to pay that back. 
It's you know, it's a short-term loan. So other soldiers who 
might be in more need might need that money instead of us.
    Chairman Chaffetz. Ms. Hensley, what has the Army done to 
help you?
    Ms. Hensley. The same as Captain Dyches over here. We never 
got any of that. His commander said that they could help us. 
But, once again, you borrow money, you're still going to have 
to pay that back so.
    Chairman Chaffetz. Thank you. My time has expired. I'll now 
recognize Mr. Lieu for 5 minutes.
    Mr. Lieu. Thank you, Mr. Chair. According to the Army Fee 
Assistance Family Handbook, this childcare program is designed 
to provide, ``soldiers and families childcare services and a 
quality of life that are commensurate with their service and 
sacrifice.'' I think we can all agree that the level of service 
provided by the Army and GSA has fallen far short of that 
standard.
    Ms. Ochoa, according to your April report, the GSA had 
accumulated by January 2015 a significant backlog of over 
11,500 childcare subsidy actionable items awaiting processing. 
That number included unanswered phone calls and emails, 
unprocessed applications. But it didn't include unpaid 
invoices, correct?
    Ms. Ochoa. At the time, GSA was not keeping track of the 
unpaid invoices or keeping account of them and they did not 
inform us that they had unpaid invoices.
    Mr. Lieu. When you add in the unpaid invoices, your report 
found that, as of July 31, the number was more than 9,100 
unpaid invoices, in addition to the thousands of other 
childcare actions not taken, correct?
    Ms. Ochoa. Correct.
    Mr. Lieu. Mr. Badorrek, would you agree that those levels 
are not acceptable?
    Mr. Badorrek. Absolutely. They are unacceptable.
    Mr. Lieu. Now----
    Mr. Badorrek. Yes, they are not acceptable.
    Mr. Lieu. Okay. Thank you. Now, Ms. Ochoa, you also note in 
your report that even though GSA took all these actions between 
January and July, the backlog actually continued to grow. And 
that by July 31, had more than doubled from its level in 
January to nearly 26,000 unprocessed actions, is that correct?
    Ms. Ochoa. That's correct.
    Mr. Lieu. Okay. So, Ms. Hoehne, I do commend you for your 
military service and your lengthy Federal service. You state in 
your statement that you have confidence that you can get this 
program basically back on track by the end of this year. What 
gives you that confidence? If the backlog has actually 
continued to grow, why do you have any confidence at all in 
what GSA has done or can do?
    Ms. Hoehne. Sir, two things, two things generate a certain 
level of confidence. One is that GSA has successfully 
identified with accuracy the number of actions required. They 
have identified what they are capable of doing. It is after an 
assessment of this that we determined to initiate a bridge 
contract to take the pressure of new actions off of GSA and let 
them focus exclusively on working the backlog and then do a 
deliberate transition of actions over to a new contract.
    Mr. Lieu. Thank you. Ms. Ochoa, in your report, you state 
that GSA should establish a plan with performance indicators, 
benchmarks, and implementation strategies. I thank you for that 
recommendation.
    And, Mr. Badorrek, will your office commit today to 
providing the committee a plan consistent with the 
recommendations in the IG's later report to this committee 
within a week?
    Mr. Badorrek. Yes. We will.
    Mr. Lieu. And, Ms. Hoehne, will your office commit to 
working with the GSA to get us that written action plan also 
within a week?
    Ms. Hoehne. Yes, sir.
    Mr. Lieu. Now, let me ask you this question, why doesn't 
the Army just switch back to CCA? It was totally fine. It's 
working for the other services. Why don't you just do that?
    Ms. Hoehne. Sir, honestly, the backlog is in such a state 
of disrepair at this point that I don't think a contractor 
would be willing to take it on. In addition, we have been 
talking with Child Care Aware and they need time to put the 
staff in place to be able to do it right and----
    Mr. Lieu. What about simply just paying 50 percent of all 
of these invoices, just so the Army and military families have 
something to rely on, and then do the rest later? Why can't we 
just do that?
    Ms. Hoehne. Sir, what we have done to speed up the payment 
of invoices, we found that a large part of the delay was due to 
a discrepancy between the invoiced amount and what GSA had in 
their records as what the provider was supposed to be paid. 
This could be due to a child aging up into a different 
category. It could be due to numbers being transposed on an 
invoice. We have directed them to pay the invoice.
    Mr. Lieu. Thank you. I just want you to consider making 
some partial payments immediately.
    Ms. Hoehne. We have essentially directed them to go ahead 
and pay the invoice and we will work out the discrepancies. 
Because the discrepancies, there's a small amount of money, 
it's important to not reach into the family's pocket the way 
that they have had.
    Mr. Lieu. Thank you. Mr. Badorrek, has anyone at GSA been 
disciplined for deleting emails and voicemails?
    Mr. Badorrek. No one has been disciplined.
    Mr. Lieu. Can you push the button and say that again?
    Mr. Badorrek. No one has been disciplined.
    Mr. Lieu. Okay. Can GSA look at disciplining people for 
deleting voicemails and emails?
    Mr. Badorrek. Yes. We will look at that. For the record I 
would like to----
    Mr. Lieu. And those voicemails and emails may have 
contained whistleblower information or information about fraud, 
waste, and abuse, and you wouldn't know that, correct?
    Mr. Badorrek. I would not know that.
    Mr. Lieu. Okay. And my final question, Ms. Hoehne, has 
anyone been disciplined at Army Installation Management Command 
for this fiasco?
    Ms. Hoehne. No, sir.
    Mr. Lieu. Could you look into that?
    Ms. Hoehne. Yes, sir. We will look for culpability.
    Mr. Lieu. Thank you.
    Chairman Chaffetz. I'll now recognize the gentleman from 
Florida, Mr. Mica, for 5 minutes.
    Mr. Mica. Well, as I complete my more than two decades' 
service on this panel, every time you attend, you say it just 
can't get any worse, that agencies really can't screw things up 
in a manner that could be more devastating.
    Sounds like thousands of military families have been left 
in chaos for their childcare. Is that pretty much the 
situation? Our two service women, you're left in chaos?
    Ms. Hensley. Yes.
    Mr. Mica. Ma'am?
    Ms. Dyches. Yes.
    Mr. Mica. Okay. First of all, I disagree with my colleague. 
I respect him. But I don't think we should pay 50 percent of 
the bills. I think you should pay the damn bills, pay the 9,000 
invoices. And that can be done. I'll send my staff down there 
to help you do it if you can't do it. And you can't come here 
and testify and tell us that you can't find a contractor that 
can pay the bills. That's baloney.
    Is there any problem with them not having contract 
authority to do this? Our inspector general, do they have 
contract authority to pay the bills? If you pay a bill and it 
is a bill that is fraudulent or not proper, aren't there means 
to recover that money?
    Ms. Hoehne. Yes, sir.
    Mr. Mica. Isn't it a crime if you defraud the United States 
Government?
    Ms. Hoehne. Yes, sir.
    Mr. Mica. Okay. Pay the bill. This is shameful. What a 
nightmare for our military families.
    Again, thank you, Mr. Chairman, for, you know, this isn't 
the Iran deal. This isn't Watergate. It isn't an IRS scandal. 
But this is a horrible scandal for our military families. The 
administrative costs, you're up to 10,000 people, the 
administrative costs are about $840 I figure, it's $8.4 million 
for administration, is that right?
    Ms. Hoehne. Yes, sir, at this point.
    Mr. Mica. Approximately.
    Ms. Hoehne. Yes, sir.
    Mr. Mica. Yeah. And you can't find somebody who can process 
this? First of all, I think you need to go back and just do a 
chart, what you're entitled to. If you've got kids and you're 
in the military and you put them in daycare, if it's on base or 
off base, here's the chart, here's your rank, here's what you 
get, and get out of the billing system and all this paperwork. 
You've created a monster, GSA.
    My own report here is you didn't know about this just last 
year. It says Army and GSA began internal discussions in 2011. 
You knew this was coming. You weren't there, but they knew this 
was coming. Is that correct?
    Mr. Badorrek. Yes. They knew it was coming.
    Mr. Mica. Okay. And you couldn't get it right? You couldn't 
get it right? Again, you can't find a contractor? Who in GSA is 
responsible for this program? What person is responsible?
    Mr. Badorrek. I am responsible for the program.
    Mr. Mica. You're responsible?
    Mr. Badorrek. Yes.
    Mr. Mica. You've been responsible during the period of the 
chaos?
    Mr. Badorrek. No. I have not been responsible for the 
transition----
    Mr. Mica. Okay. Have you been rewarded? Have you gotten a 
bonus the last year?
    Mr. Badorrek. No. I've only been with the Federal 
Government since January----
    Mr. Mica. Okay. And who is working with you? I want a list 
of the GSA people working on this. I found in the past they end 
up getting bonuses. They do lousy work and they get bonuses. I 
want you to submit within the required days to this committee 
who is working on it specifically, what their pay scale is, and 
if they got a bonus during this period. Can you do that?
    Mr. Badorrek. I can do that.
    Mr. Mica. And who is in charge----
    Chairman Chaffetz. When is a reasonable date to have that?
    Mr. Mica. I want it within 30 days or I'll ask for your 
resignation. I want it within 30 days. You give me a list and I 
want a list of the people who have, their pay, and if they've 
gotten any bonuses if they've been involved in this program.
    I believe that we should look at maybe going to a direct 
grant, we need to solve this, something through pay or scale 
that should be set up. This is a nightmare, paperwork, 
bureaucracy, and contractors, millions of dollars more that 
we've spent. And we have only 10,000 families in this program, 
is that correct? Am I wrong.
    Mr. Badorrek. Yes.
    Ms. Hoehne. Yes, sir----
    Mr. Mica. Ten thousand, and you can't find a vendor that 
can handle 10,000 applications and make payments to vendors? 
There's now 5,000 vendors I understand that are eligible, is 
that correct? Approximately? Anybody know? Do you know?
    Ms. Hoehne. Yes, sir. Yes, sir.
    Mr. Mica. I'm just asking. Again, I have never seen 
anything so screwed up and intended to do well for our 
military, transferred to GSA with plenty of notice, and then 
this results. This is, Mr. Chairman and my fellow members, this 
is shameful. I yield back.
    Chairman Chaffetz. Thank the gentleman.
    Now recognize the gentleman from Massachusetts, Mr. Lynch, 
for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman. And I agree with the 
previous speaker. This is shameful that this has happened.
    First of all, I want to thank you all for testifying. Thank 
you for coming before this committee to straighten out this 
problem. I want to thank you for your service to our country.
    And, Ms. Hensley, your family's service to our country. You 
would think that based on the importance of the decision that 
your families have made, Captain Dyches, and, Ms. Hensley, that 
to put on that uniform on behalf of this country, that we would 
meet our obligations to make sure that your families have the 
support in order to allow you to undertake that serious 
obligation. And it is nothing short of infuriating that you had 
to go through this.
    Let me just try to get at the problem. Ms. Ochoa, you said 
in your testimony that this transfer of responsibility from the 
previous company, CCA, Child Care Aware, they had the contract 
previously for child care?
    Ms. Ochoa. Yes. That's my understanding.
    Mr. Lynch. Okay. Now, this move to give it to--give the 
responsibility now to GSA was done as a cost-saving measure. Is 
that correct?
    Ms. Hoehne. Yes, sir.
    Mr. Lynch. Ms. Hoehne, it might have been you that said 
that. I'm sorry.
    Ms. Hoehne. Yes, sir.
    Mr. Lynch. So as I understand, GSA said they could do that 
job for half the money. Is that right? It was $8 million and 
they said: We can do it for $4 million?
    Ms. Hoehne. Yes, sir.
    Mr. Lynch. How's that worked out?
    Ms. Hoehne. We were aware at the time that there was a 
fairly significant amount of indirect cost in the contract.
    Mr. Lynch. Yeah.
    Ms. Hoehne. And that cost was not being charged with GSA.
    Mr. Lynch. I understand that. But could you tell me how 
that's worked out?
    Ms. Hoehne. Sir, it hasn't worked out.
    Mr. Lynch. It has not worked out. That's what I'm getting 
at. Okay. So they said they were going to do it for $4 million, 
what has it cost them so far?
    Ms. Hoehne. Right now we're at $8.4 million total.
    Mr. Lynch. So they didn't save money, it actually cost 
$400,000 more----
    Ms. Hoehne. Yes, sir.
    Mr. Lynch. --than the previous contractor.
    Captain, Dyches, Ms. Hensley, did you have any contact with 
this CCA? Were your kids in that program?
    Ms. Dyches. Yes. Yes, Mr. Congressman. I absolutely did. It 
was operating smoothly and everything was----
    Mr. Lynch. Was it? Yeah, tell me about that. How did they 
handle the responsibilities that they had to your kids and your 
family?
    Ms. Dyches. We all had one person that we answered to. So 
there was one individual taking care of a number of families. 
So I only had one number to call. That woman took care of not 
only placing my child into a child care because it's rather 
difficult to find in the--you know, the district where the 
people that actually meet the requirements are located. So she 
gave me lists of people in, you know, various areas on my way 
to work, you know, that were convenient to me and my husband. 
She walked--she held our hand through the entire process.
    And then we actually had to switch child care providers 
because the one that I was using was--ended up to be far away. 
We were new to the area. So whenever we needed to switch over, 
that was when I was informed that they no longer had that 
services. You know, they couldn't help us, and so I was just 
kind of left on my own to find these people. And I luckily did 
find a woman that has been, you know, very, very great for our 
family, a really good fit. But that service is no longer there, 
and, you know, starting in October it went downhill.
    Mr. Lynch. Okay. Ms. Hensley, have you had--did you have 
dealings with Child Care Aware, the previous contractor----
    Ms. Hensley. So, our story's a little bit unique. We were--
at the time when we had NACCRRA, we were about 2 days away from 
getting the documents pulled through stating that, you know, 
you're going to get your--you know, everything's going to be 
fine. We actually never got any emails or anything stating that 
the switch was going to occur.
    Mr. Lynch. Yeah. I--okay. Go ahead. I'm sorry.
    Ms. Hensley. So overnight when we went back on to the 
NACCRRA Web site to finish filling out the paperwork and stuff, 
they said that it was no longer there.
    Mr. Lynch. Okay.
    Ms. Hensley. So at that point we had to start from scratch 
all over again. So----
    Mr. Lynch. Okay. All right. I get it.
    Ms. Ochoa, wouldn't it make sense if this other company, 
Child Care Aware--and, by the way, you explained that GSA was 
handling 200 families, and then we gave them responsibility--
and those 200 families were in Federal centers, which is much 
more manageable.
    Ms. Ochoa. That's correct.
    Mr. Lynch. And then we turn around and give them 9,000 
families and 5,000 individual providers to deal with. And 
basically, Ms. Hoehne, and Ms. Ochoa, you both testified that 
things when right downhill immediately after that. The list 
started getting longer and we had all kinds of problems.
    Wouldn't it make sense, I mean, the other company was doing 
it well, doing it cheaper, actually doing the job on behalf of 
Captain Dyches' and Ms. Hensley's families and others, wouldn't 
it make sense just if it's not--I mean, what--it didn't 
accomplish the savings. We're paying more for worse services.
    Wouldn't it make sense to go back to this--and I'm not--you 
know, I'm not advocating on behalf of CCA, this Child Care 
Aware program necessarily. They're not in my district. I don't 
have any interest in them. But, by God, they were doing the 
job. Why did we remove them?
    Ms. Hoehne. Sir, at the time there was an opportunity to 
save money we thought----
    Mr. Lynch. Yeah.
    Ms. Hoehne. --and it seemed like a logical course of 
action. We have recognized the error of our ways and we are 
going back to a contractor who has experience and can provide 
the quality of service our families deserve.
    Mr. Lynch. All right. I've gone over my time. Mr. Chairman, 
I thank you for the indulgence.
    Chairman Chaffetz. Will the gentleman before that? Is that 
going to be a competitive bid or a sole source contract?
    Ms. Hoehne. Sir, initially for this bridge we're going to 
do a sole source.
    Chairman Chaffetz. Sounds like you've already made the 
decision. Do you know who it is? Do you know who it is?
    Ms. Hoehne. Yes, sir.
    Chairman Chaffetz. Who is it going to be?
    Ms. Hoehne. Child Care Aware.
    Chairman Chaffetz. So you're going to go back to Child Care 
Aware.
    Ms. Hoehne. Yes, sir.
    Chairman Chaffetz. If you can provide the details of that, 
we would be very appreciative.
    Ms. Hoehne. Yes, sir. We're still working it out. We 
haven't--they have to get their staff on board and then we'll 
be in a position to let the contract, sir.
    Chairman Chaffetz. Thank you.
    Mr. Lynch. Thank you, Mr. Chairman.
    Chairman Chaffetz. Thank the gentleman.
    I now recognize the gentleman from Georgia, Mr. Hice, for 5 
minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    Ms. Hoehne, I want to go back to what you were just now 
talking about because it seems like we may be finally on a path 
to correcting all of this. So you said you're going back to 
Child Care Aware?
    Ms. Hoehne. Yes, sir.
    Mr. Hice. Okay. When will that be made public and when will 
Captain Dyches and the Hensley family and others be aware that 
relief is on the way?
    Ms. Hoehne. Sir, we're in conversation right now. They are 
beginning to pull staff in so that they will be in a position 
to take over the contract.
    Mr. Hice. In conversation with who?
    Ms. Hoehne. Yes, sir.
    Mr. Hice. With who?
    Ms. Hoehne. With Child Care Aware.
    Mr. Hice. Okay.
    Ms. Hoehne. We've learned a lot of lessons in this, and 
this is going to be a very deliberate event. So it will be a 
transition where they initially take on some responsibility. 
And then also, if I may, I will take that question for the 
record and give you our timeline.
    Mr. Hice. Yeah. I want timeframes. We've got families that 
are suffering. We need to know when is this transition going to 
be completed, what are the benchmarks that you're relying upon 
in order to meet the transition and the timeframes so that we 
don't have further bankruptcies and families suffering. It's 
inexcusable what's taking place.
    Now you said just a little while ago that no other 
contractor would take this scenario on right now because it's 
in such disrepair, and yet CCA is going to take it back. Has 
that been agreed to?
    Ms. Hoehne. Yes, sir. They are agreeing to help us. They 
are agreeing to a transition, but they are not taking the whole 
contract on all at once. They're----
    Mr. Hice. All right. So what is the plan? What part of the 
contract are they taking, and what's going to happen to those 
families that are not part of the immediate contract?
    Ms. Hoehne. GSA is still being held accountable for fixing 
the backlog and taking care of families as quickly as possible. 
At the same time we will start----
    Mr. Hice. That does not sound possible, Mr. Badorrek. This 
thing has been messed up from the get-go and now all of a 
sudden you're supposed to correct this during a transition 
while it's going back to CCA. That doesn't sound like it's a 
possible task. You guys have messed this thing up pretty 
thoroughly.
    Mr. Badorrek. The----
    Mr. Hice. Turn your mic on, please.
    Mr. Badorrek. Okay. The move to this contractor for 
incoming applications will help us to get through the backlog. 
As we have worked through the backlog, we have more work coming 
in. We have 24,000 transactions coming in a month. That will 
relieve the pressure and give us a higher likelihood of 
success.
    Mr. Hice. All right. How long is this transition going to 
take? This still sounds like we've got a mess. We've got so-
called a solution on the table. But this sounds to me like it's 
still going to take forever to get corrected.
    Ms. Hoehne. Sir, we're in the process of signing an 
extension agreement with GSA to December to get the backlog 
under control.
    Mr. Hice. Through December, you said?
    Ms. Hoehne. Yes, sir. Ideal circumstances with not having 
to handle the new transactions and being able to focus 
exclusively on the backlog, that enables them to double the 
volume of actions that they could handle. Working the backlog, 
they should be at a sustainable rate by December.
    However, in consultation with Child Care Aware, we are 
going to continually assess their ability to take on more 
responsibility, and if they can take on more sooner, we will 
accelerate the transition.
    Mr. Hice. ``Sooner'' being what?
    Ms. Hoehne. Sir, I can't answer that question yet because 
we're at the leading edge of the consultation with what they 
can do as they bring their staff on. The concept is----
    Mr. Hice. Do they not already have staff?
    Ms. Hoehne. --initially take the new actions and take the 
recertifications because that's a constant state thing, while 
they work the backlog on paying providers. Then we can 
coordinate payment of payment to providers of delayed invoices.
    Mr. Hice. All right. I understand you're in conversation 
with Child Care Aware. All right. So I'm not looking right now 
for specifics. I want those specifics as soon as possible.
    Ms. Hoehne. Yes, sir.
    Mr. Hice. But generally, what kind of timeframe are we 
looking at? We have families out here suffering. We don't need 
to drag this thing out for months and months and months and 
months. Generally speaking, what kind of timeframe are you 
anticipating?
    Ms. Hoehne. Sir, I am shooting for having this contract 
fully transitioned to Child Care Aware by the end of December.
    Mr. Hice. By the end of--so a year from now?
    Ms. Hoehne. No, sir. By the end of this December.
    Mr. Hice. Oh. All right. I though you said summer. So what 
does January look like for these families?
    Ms. Hoehne. If things go as planned, then they will be 
under Child Care Aware, and they will be back to receiving the 
level of service that they deserve.
    Mr. Hice. How many families will be under Child Care Aware?
    Ms. Hoehne. Sir, we have approximately----
    Mr. Hice. I mean, percentage-wise.
    Ms. Hoehne. --9,800 families in the program, and 9,800 
families will be taken care of the way they ought to be taken 
care of.
    Mr. Hice. All right. So you are anticipating that come 
January, this whole problem is going to be resolved.
    Ms. Hoehne. That's my objective, sir.
    Mr. Hice. Okay. That the whole problem will be resolved by 
January. That's your objective.
    Ms. Hoehne. Yes, sir.
    Mr. Hice. Okay. So GSA is going to be out of this equation 
entirely, and CCA will be 100 percent in control by your 
objective----
    Ms. Hoehne. Yes, sir.
    Mr. Hice. --by January?
    Ms. Hoehne. Yes, sir.
    Mr. Hice. Okay. Ms. Ochoa, do you have any recommendations 
at this point that you would lay on the table to make this 
transition happen smoothly?
    Ms. Ochoa. One of the things we did recommend to the----
    Mr. Hice. Can't hear you.
    Ms. Ochoa. One of the things that we did recommend in the 
report is that in the event of a transfer of the program, which 
it sounds like is in the works, GSA and the Army and the 
transferee have to work closely to avoid any further disruption 
to Army families. That's----
    Mr. Hice. Yeah, that sounds good, but that's got to happen. 
We have families suffering, and this has got to stop 
immediately. And I look forward to getting your response on the 
specifics of the timeline and the benchmarks, and I appreciate 
that.
    And I yield back, Mr. Chairman. Thank you.
    Chairman Chaffetz. Thank the gentleman.
    We'll go ahead and schedule a notice of hearing for January 
2, sounds like. So we look forward to seeing you back.
    I now recognize the gentleman from Virginia, Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman.
    And congratulations to the U.S. Army and GSA for bringing 
Democrats and Republicans together here in the Congress.
    You know, listening to the story, our U.S. Army does such a 
wonderful job. It runs overseas bases. It runs big bases like 
Fort Belvoir in my district here at home. Millions of people 
processed. We fight wars. We deploy troops. We engage in peace-
keeping missions. We run commissaries. But child care is beyond 
us. And, relatively speaking, the numbers are small compared to 
the other missions and tasks the Army and GSA face. And it 
passes understanding how we could have arrived at this point.
    Nobody obviously intended to do harm to the program, but 
decisions were made that had consequences. Consequences on real 
people. You're a parent, and you have to work, there is nothing 
more sacred than the care of your child. And when you entrust 
any entity, an individual caregiver or an institutional 
caregiver, your child, we in the public sector have a sacred 
obligation to do the very best we can for that child and that 
family.
    Ms. Hoehne, what in the world possessed us to decide to 
change a program that was working and go with GSA? Why did we 
decide that?
    Ms. Hoehne. Sir, according to the documentation.
    Mr. Connolly. I'm going to ask everyone to speak into the 
mic like I'm doing. Because it's hard to hear you sometimes. 
Thank you.
    Ms. Hoehne. Yes, sir. According to the documentation at the 
time the decision was made back in August of 2013, fiscal 
pressures were causing the Army to look everywhere for ways to 
gain efficiencies and save money.
    Mr. Connolly. You though you'd save money.
    Ms. Hoehne. Yes, sir.
    Mr. Connolly. How'd that work out for us?
    Ms. Hoehne. Not so good?
    Mr. Connolly. How come?
    Ms. Hoehne. We did not do our due diligence in inspecting 
the capability of GSA to take on an expansion of the program. 
We did not communicate effectively with each other. GSA didn't 
let us know they weren't ready. We didn't go in and check and 
make sure they were ready. And that put us on our back foot at 
the outside of the program.
    Mr. Connolly. Mr. Badorrek, so they didn't do their due 
diligence, but GSA made a representation to the Army that it 
was capable of undertaking this task. Is that correct?
    Mr. Badorrek. That is correct.
    Mr. Connolly. Speak in.
    Mr. Badorrek. Yes. That is correct.
    Mr. Connolly. And you got it wrong too.
    Mr. Badorrek. GSA got it wrong, yes, absolutely.
    Mr. Connolly. How did that happen?
    Mr. Badorrek. GSA got it wrong.
    Mr. Connolly. Again, I'm going to ask you to speak into the 
mic. I can't hear you.
    Mr. Badorrek. Okay. GSA underestimated the level of effort. 
They looked at the level of effort it was taking to support 
child care and families with the Federal day care centers. They 
underestimated the effort it would take to support 6,000 
providers. They underestimated the system needs and complexity 
and the $4 million that we agreed to do with the Army was too 
low.
    Mr. Connolly. I'm focused on the backlog. I think I'm 
correct that there's a backlog or was a backlog of about 9,000. 
Is that correct?
    Mr. Badorrek. The backlog of invoices or the backlog----
    Mr. Connolly. Of invoices.
    Mr. Badorrek. Yes, there's about 8,000----
    Mr. Connolly. Eight-thousand. What's the average invoice 
for?
    Mr. Badorrek. Average invoice is a little over $300.
    Mr. Connolly. Three hundred dollars. Is that the average 
monthly cost to put a child in child care in the program?
    Mr. Badorrek. It's per child, yes.
    Mr. Connolly. Per child. Per month.
    Mr. Badorrek. Yes.
    Mr. Connolly. Per month. So, I don't know. What's the 
salary, do you think, of the average client in the program? 
Monthly salary that the U.S. Army pays?
    Mr. Badorrek. I have no----
    Mr. Connolly. Ms. Dyches, can you give us a round ballpark 
figure? I mean, not necessarily yourself, but people you know.
    Ms. Dyches. Ballpark figure, Mr. Congressman?
    Mr. Connolly. Yeah. Are they making $30,000 a month.
    Ms. Dyches. No.
    Mr. Connolly. No, no. What are they making?
    Ms. Dyches. Probably like two to three grand, sir.
    Mr. Connolly. Two to three thousand?
    Ms. Dyches. Yes, sir.
    Mr. Connolly. So if I've got a--if I haven't been 
reimbursed for my $300 monthly childcare, and maybe I have two 
kids, so my cost is more than $300, from a cash flow point of 
view for an active duty service member, that's a hardship.
    Ms. Dyches. Yes. Definitely.
    Mr. Connolly. Is GSA aware of the urgency of the need to 
reimburse men and women in uniform for their childcare?
    Mr. Badorrek. Yes, we are.
    Mr. Connolly. So how in the world did you end up with a 
backlog of at least 8,000?
    Mr. Badorrek. We receive----
    Mr. Connolly. Not enough people working at GSA?
    Mr. Badorrek. We receive 12,000 invoices a month. We have 
about 35 percent that error out for some kind of----
    Mr. Connolly. I still can't hear you, Mr. Badorrek.
    Mr. Badorrek. We receive 12,000 invoices a month. We have 
roughly 30 percent, 35 percent that error out. I believe we are 
too stringent in ensuring that the amounts were precise. We 
have fixed that going forward.
    Mr. Connolly. Well, it's commendable--it's obviously 
commendable to verify so that we're not wasting taxpayer 
dollars. But it's also critical that the families we're trying 
to serve are served in a timely fashion so that they're not 
experiencing a cash flow squeeze.
    And one would think that would be a priority, both for the 
Army and for GSA. But we're not talking about people who are, 
you know, getting rich like Donald Trump in service to their 
country. These are men and women who are making sacrifices for 
their country at kind of modest compensation but who 
nonetheless have family obligations that need to be met, and it 
seems to me that in that sacred obligation we've got to kids, 
to men and women in the uniform, we also have part of that, by 
extension is, can they be reimbursed in a timely and efficient 
manner. Would you not agree, Mr. Badorrek?
    Mr. Badorrek. I agree.
    Mr. Connolly. Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman.
    I now recognize the gentleman from Iowa, Mr. Blum, for 5 
minutes.
    Mr. Blum. Thank you, Mr. Chairman. Thank you so much for 
holding this most important hearing. And I'd also like to 
welcome the panel. And for those of you that have served in the 
military or are currently serving in the military, thank you 
for your service to this great Nation of ours. Much 
appreciated.
    Mr. Badorrek, you're a former executive vice president of 
Xerox. Is that correct?
    Mr. Badorrek. Senior vice president, yes.
    Mr. Blum. And you also have executive experience at, I 
believe, Verizon and MCI?
    Mr. Badorrek. Yes.
    Mr. Blum. First of all, I'd like to say I'm glad you're 
here. I'm a private sector myself, and I think we need more 
private sector experience in the Federal Government, not less.
    That being said, I'd like to ask you a few questions.
    Did Xerox and did Verizon, did MCI take care of their 
customers?
    Mr. Badorrek. Yes, they I did.
    Mr. Blum. I'd like to ask you, who is the customer of the 
GSA?
    Mr. Badorrek. The customer is the Army families.
    Mr. Blum. Could you say it once again?
    Mr. Badorrek. The Army families are the customers.
    Mr. Blum. Do you think most people in the GSA understand 
that? Do they understand who the customer is in this situation?
    Mr. Badorrek. I believe so, but I don't know absolutely 
know.
    Mr. Blum. Mr. Badorrek, what would happen if Xerox or 
Verizon, in the private sector, did not take care of their 
customers? What would happen? What would happen to the company 
and what would happen to the executives?
    Mr. Badorrek. First, they would take action quickly to 
remedy the problem.
    Mr. Blum. And what would happen if they didn't? What if 
they didn't take action quickly to take care of the customers? 
What would happen? What would happen to Xerox?
    Mr. Badorrek. If Xerox----
    Mr. Blum. Yeah. You're a former senior vice president 
there. Correct?
    Mr. Badorrek. Yes.
    Mr. Blum. You had a division that was not taking care of 
their customers, what would you do?
    Mr. Badorrek. Yeah. There would be focus. It would get 
fixed, whether it was resources or the company did lose money, 
they would get things in place to make the situation right.
    Mr. Blum. And what would happen to the management?
    Mr. Badorrek. The management----
    Mr. Blum. Would they keep their jobs or they'd get bonuses? 
Would they be terminated? What would happen?
    Mr. Badorrek. If it was not working, they would certainly 
not get bonuses. They would be required to fix the problem as 
soon as they could. They could lose their job.
    Mr. Blum. As a private sector person, Mr. Badorrek, what 
I'm concerned about in the Federal Government is there's no 
penalty for failure in Washington, D.C. No penalty for failure. 
And you're a private sector guy. There is penalty for failure, 
would you agree, in the private sector?
    Mr. Badorrek. There is penalty for failure. In the private 
sector, you can move much faster than in the government.
    Mr. Blum. Why is that?
    Mr. Badorrek. In the private sector, if you need to have 
additional contractors in a call center, you can do that in a 
week. In the public sector, you have to go obtain, get 
additional funding, sign the contract, obtain a vendor 
contract. They have to procure people. They have to go through 
security clearance. The ability to move and make changes in the 
government, for me, just coming out of the private sector, it's 
taken longer than I'm used to.
    Mr. Blum. In your opinion, Mr. Badorrek, would the Federal 
Government be more effective and more responsive to our clients 
if we implemented some of these private sector practices? Just 
your opinion.
    Mr. Badorrek. Yes.
    Mr. Blum. It says in your testimony you were made aware of 
a problem, this problem, on January 7 of 2015.
    Mr. Badorrek. Yes.
    Mr. Blum. What happened since then? You tell me how you 
used your private sector experience to make sure this problem 
got quickly resolved, as you just said it would be at Xerox?
    Mr. Badorrek. First of all, the problem is not resolved. 
The backlog's unacceptable. I apologize for that. GSA 
apologizes for that. I can tell you what I did and some of the 
struggles that we encountered. We received--I received a letter 
from a family on January 7 expressing concern about the 
operation and their application. I asked for some background 
information on it. On the 19th of January, I flew to Kansas 
City to look at the operation. On that day I put additional 
focus and management on the project. Two weeks later I changed 
the oversight of the organization, and we went to the Army for 
additional funding.
    Mr. Blum. Okay. We're 8 months later. Correct? The 
problem's not taken care of. If this was Xerox, if this was 
Verizon, would this problem have been taken care of by now?
    Mr. Badorrek. I believe so.
    Mr. Blum. Okay. Things need to change. Would you agree?
    Mr. Badorrek. Yes.
    Mr. Blum. I just want your honest opinion. Your honest 
opinion on this next question. Give me your observations as a 
private sector executive on the culture of the GSA. Is it a 
customer-driven organization?
    Mr. Badorrek. Yes. It is.
    Mr. Blum. All evidence to the contrary in this situation, 
would you agree?
    Mr. Badorrek. In this situation, following the government 
requirements to obtain the funding, to get the contract with 
the vendor, to procure individuals to go through the clearance 
process all took longer than I would have ever expected and 
have ever experienced before.
    Mr. Blum. And my time is expired. I'd just like to end by 
saying I'm glad you're here, I'm glad you have private sector 
experience. And please work hard to change this to a more 
customer-driven government. Thank you very much.
    I yield back, Mr. Chairman.
    Chairman Chaffetz. I thank the gentleman from Iowa.
    I now recognize Ms. Norton from the District of Columbia 
for 5 minutes.
    Ms. Norton. Thank you, Mr. Chairman.
    Actually, Mr. Badorrek, I like the idea of the government 
competing with the private sector for work, and we have 
encouraged that in the government.
    And this case, Ms. Hoehne, I certainly understand it. In 
the face of the sequester and the cuts that preceded it, I'm 
sure that there are agencies all over the government now 
competing for work with the private sector. The difference of 
course is that here we were dealing with children and with 
members of the Armed Forces, where there's very special 
obligation when either the private sector or the government 
does the work.
    First let me ask about the 200 that GSA had. Do they still 
have 200 Army families under--where they're doing the work 
for----
    Mr. Badorrek. Yes. Yes, we kept the 200 and added the 
roughly 9,000. That number is about 10,000 families now.
    Ms. Norton. And you retained--are you going to retain the 
200 afterwards, or are you going to give that work to the CCA?
    Mr. Badorrek. That's up to the Army to decide.
    Ms. Norton. Has the Army decided that issue?
    Ms. Hoehne. No, ma'am, not at this point.
    Ms. Norton. I think you said, Ms. Hoehne, that no 
contractor would take this with this backlog. Does that mean 
that the backlog has got to be taken care of before the work is 
given to the new contractor?
    Ms. Hoehne. Ma'am, we have to get the backlog to a 
sustainable level.
    Ms. Norton. So you're not going to give them the backlog. 
You're going to give them a clean slate?
    Ms. Hoehne. I'm going to transition it gradually in 
manageable bites so that the new contractor is not overwhelmed 
and we don't make a bad problem worse.
    Ms. Norton. That's certainly a good idea. But what happened 
was all of these--all of these families that they had--they had 
200 families, presto they had 9,000, and there was no phasing 
in of that work. So it would have been better to phase in that 
work no matter who the contractor was, whether it was GSA or 
any other contractor.
    I understand that this matter was not rectified until it 
came to the attention of the public through an NBC4 
investigation here in the District of Columbia. Is that true?
    Ms. Dyches. Yes, Congresswoman.
    Ms. Norton. So it was uncovered by the press?
    Ms. Dyches. Yes, Congresswoman.
    Ms. Norton. Mr. Badorrek?
    Mr. Badorrek. Yes. GSA reported the problem to the IG----
    Ms. Norton. After or before----
    Mr. Badorrek. In February of this year. When I came on 
board on January, visited the operation, I knew we had a 
problem that was disclosed to the IG. We asked them to----
    Ms. Norton. I'm just trying to get the dates here. I mean, 
you disclosed it----
    Mr. Badorrek. Yes, in February.
    Ms. Norton. So did you speak to the reporters from NBC4 who 
made this a public matter about what GSA was going to do about 
it, or did anyone at GSA say what it was going to do about it 
at the time that it became a public matter?
    Mr. Badorrek. I did not speak to them. Our public relations 
organization did.
    Ms. Norton. I'd like to ask you, Ms. Dyches, it sounds to 
me that essentially without the subsidy you would be out of 
pocket--or what did these families do? Did they somehow quickly 
get somebody else to take care of a child? Have they lost 
money? And can you calculate the amount of money you would 
have--you have lost if you have lost any?
    I mean, perhaps somebody had a relative, happened to have a 
relative in this area. I don't know. But I'd like to know 
whether you are out of pocket as a result of not getting the 
subsidy.
    Ms. Dyches. Yes, Congressman. We were out of pocket upwards 
of $2,000 to $3,000 at one point. We have been--once the News 
Channel 4 took over the issue and made it public, we were paid 
the very next day. Our childcare provider was.
    But, yes, if you don't have family in the area to help you 
out with this, and, like I said, my husband and I are a dual 
military couple, child care is a requirement. We can't just not 
go to work. So--and also most military families are dislocated 
from their family, their main--you know, their mothers, their 
fathers. They have been relocated. So that is also not an 
option for most military families to rely on mother-in-laws.
    Ms. Norton. What was GSA's track record with 200 families? 
And was any investigation done of that? I mean, we've--before 
you get to triple your caseload, surely someone looked to see 
what GSA had already done with 200 families committed to its 
care.
    Ms. Hoehne. Ma'am, the Army had had a 10-year relationship 
with GSA supporting the 200 families with no problems. So we 
had a good relationship with them as far as----
    Ms. Norton. So the problem was with the scale and of course 
with the anxiety GSA and other agencies are feeling to cut 
costs.
    So while I think it's inexcusable that these families were 
left in this way, I do think that for the government, for we 
who are in the government who are responsible for the 
sequester, who are responsible for the cuts, to sit up here and 
act as though GSA had all kinds of options and they just didn't 
take the right one is not entirely fair. That's why I wanted to 
bring that out.
    I go back to my premise, though. We are dealing with, as 
far as I'm concerned, the most precious people in our society. 
The children would come first. Second would come their parents. 
Because these are all volunteers taking care of us in the 
United States.
    Thank you.
    Chairman Chaffetz. Thank the gentlewoman.
    And before I recognize our next two Members of Congress, in 
addition to Mr. Lieu and his service in the Air Force, these 
next two Members of Congress have storied histories and service 
to our country.
    I'd like to recognize, and if you wouldn't mind standing, 
we have Evan Hensley and Austin Dyches. These are the husbands 
of the two witnesses today. Evan Hensley is a Sergeant E5. 
Austin Dyches is a Specialist D4. We thank you gentlemen for 
your service. I'm sorry you're going through this. We 
appreciate your wives stepping forward and doing the right 
thing and helping us out here and testifying.
    Testifying before Congress is not necessarily an easy thing 
to do, but we appreciate your sacrifice, and here to help solve 
this problem and take care of your--each of you have 2-year-old 
daughters. And we again thank you for your service. Thank you.
    With that, we'll now recognize the gentleman from Oklahoma, 
Mr. Russell, for 5 minutes.
    Mr. Russell. Thank you, Mr. Chairman.
    I really do appreciate the courage that you have coming 
here today. All of you. From the testimony, it appears that 
everyone is being very forthright and is owning the problem. 
Having raised five children on soldier's pay, at any grade, it 
is hard work. And it's infinitely important in order for you to 
carry out your missions and your capacities that your family's 
taken care of.
    I would ask first, Mrs. Hensley, have you or your husband 
received any pressure from your chain of command on your 
willingness to come forward to testify? Or any discouragement 
to and make this problem known?
    Ms. Hensley. No, Mr. Congressman.
    Mr. Russell. And, Captain Dyches, have you received any 
discouragement or pressure about stepping forward and helping 
resolve this matter?
    Ms. Dyches. No, Mr. Congressman.
    Mr. Russell. Okay. Thank you.
    Colonel Hoehne, first off, thank you for your distinguished 
service. While you're here in a capacity as a director, I know 
that you get it from your distinguished service to our Nation 
for 26 years. And thank you for that. The fact that you've 
owned the problem like a badge today with your forthright 
answers gives me some comfort that as we've had these hearings, 
that people are trying to solve and work the problem.
    With regard to the funding, does any of the funding to 
these programs come from the MWR feeds, from commissaries, or 
base exchanges or post exchanges?
    Ms. Hoehne. No, sir. On the MWR arena, child care is 
considered a mission enabler, a category B activity which means 
it is partially funded both by appropriated funds and by non-
appropriated funds.
    Mr. Russell. Okay. Thank you for that clarification.
    And for either you, Colonel Hoehne, or, Mr. Badorrek in 
your capacity now that you've jumped into this problem, can you 
explain the subsidy cut? I know when I was, you know, serving 
my career in the Army, we all got the same amount of money for 
food. You know, whether you were a private or a colonel, the 
human basic needs is the same.
    How can we explain the cut in childcare, and how can we 
explain that a 2-year-old is not as important as, say, a 3-
year-old, or is more important than a 3-year-old when it comes 
to childcare or the service member or family member's ability 
to care for that child? I mean, the needs are still the same. 
Have any of you, or even Ms. Ochoa, have any of you discovered 
why we have this degradating scale?
    Ms. Hoehne. Sir, the program fees charged are based on two 
factors. There are nine categories established by DOD based on 
pay, combined family income, and so it's not tied to rank or 
status, but it's based on combined family income as to what a 
fee would be charged within a child care center. Then within 
the child care center, fees are graduated according to the age 
of the child because there's different ratios required for 
childcare.
    An infant, you have one caregiver for four infants. So they 
are more expensive to care for than school-age children who can 
have 1-10 ratio. So school-age children cost less than infants, 
basically, within that convoluted fee structure. There's a 
matching structure for the Army Fee Assistance Program that we 
provide the difference between what is charged off-post and 
what you pay on-post up to a certain cap.
    Mr. Russell. And I follow the logic of some of that. But I 
guess we shouldn't punish our volunteer warriors because of 
what their spouses may or may not do, whether they're employed 
or not employed. Because by doing so, we discourage all people 
that have capacity to defend this Nation. And if we punish 
those that have a lack of capacity to care for their children 
or we somehow punish those who might have better means to pay 
for children and their childcare, it's really irrelevant. It's 
kind of like food.
    We want the best warriors to defend our country. And by 
separating or categorizing somebody's children as more 
important or less important based upon their station or the 
employment of their spouses, has anyone given any of that a 
serious look?
    Ms. Hoehne. Sir, all of our children are important to us. 
And that is one of the reasons I believe that my chain of 
command has directed a number of reviews of the entire 
childcare and Fee Assistance Program.
    Mr. Russell. Well, I would hope that we would. Our warriors 
ask for very little. They certainly don't serve for pay. I 
never did. And I would think--you know, I mean, we ask for our 
families to be cared for, for certain medical expenses to be 
paid for, and for honors at burial. And that's really all we 
ask for.
    And I think, given the amount of this magnitude of the 
problem and the impact it can have on mission readiness, and 
we're talking in terms of government dollars, $3 million, it 
seems to me like we ought to be able to fix this as quickly as 
possible. And I'm satisfied with the answers that I've heard 
today that I think the people sitting here are certainly 
dedicated to trying to fix the problem. But we need to know how 
we can assist in that and break the bureaucracy that has been 
well made known through the hearings today. The problem is not 
fixed, but it has been exposed, I think, with some good light.
    And with that I've exceeded my time, and I yield back, Mr. 
Chairman.
    Chairman Chaffetz. Thank the gentleman.
    I now recognize the gentlewoman from Illinois, Ms. 
Duckworth, for 5 minutes.
    Ms. Duckworth. Thank you, Mr. Chairman.
    I'd like to ask Captain Dyches, is that how you pronounce 
it, or either of the two spouses, have any of you been 
deployed?
    Ms. Dyches. No, Congressman, I have not.
    Ms. Duckworth. But Sergeant Hensley, you have? Three times? 
So what would have been your frame of mind overseas defending 
this Nation in a combat situation if your child was not in 
daycare or you couldn't pay for childcare?
    I know you're not testifying, but I'm going to ask your 
spouse to perhaps speak to how would you feel as a mom knowing 
that your husband was in combat and worried about whether or 
not your daughter was able to be in daycare or whether or not 
you had money to pay for daycare? Would you want him to have 
those worries on his mind as he's trying to go out and engage 
and bring destruction to the enemy?
    Ms. Hensley. No, Mrs. Congresswoman.
    Ms. Duckworth. Yeah. This is not just a childcare issue. 
This is a military readiness issue. When our troops engage with 
the enemy, they should not be worried about whether or not 
their daughter is in daycare or whether or not she's sitting on 
a corner because she couldn't get in. And I know that, Colonel 
Hoehne, you understand this.
    And, Mr. Badorrek, you inherited something that you're 
trying to fix. But I am ashamed that we have put these families 
in this situation. And, frankly, I am astonished that we're 
doing this to our military men and women and their families.
    You know, at the very same time the Army resisted my bill, 
The Mom Act, to provide military women with more than 6 weeks 
of maternity leave. So not only are we telling military women: 
Hey. You got to go back to Afghanistan after 6 weeks, we're 
also telling them we're not going to provide you with the 
daycare on base to take care of your children. And then you got 
to pay out of pocket, and we're not going to reimburse you. 
This is shameful. We are better than that. We're the most 
powerful Nation on the face of the Earth, the most powerful 
military, the most powerful Army on the face of the Earth. We 
can do better. And I hope that you work very closely to fix 
this issue.
    I'm deeply concerned about this transition period that's 
going to end between September of this year and when the 
contract with GSA ends. What likelihood, and either Colonel 
Hoehne or Mr. Badorrek, you can answer--you should both answer 
this. What is the likelihood that there will be a program 
administration contract in place by October 1 of 2016? I'm 
sorry. Of--when you do the transition, would there be a 
contract in place ready to go so that nobody gets dropped, no 
child gets left behind, no one falls through the cracks?
    Ms. Hoehne. Ma'am, we're looking at getting a contract 
established as soon as possible. There will be an overlap 
between the contractor and GSA. And the contractor will then 
assume more and more and more of the responsibilities as GSA 
works exclusively on the backlog. So there is going to be a 
contract in place.
    Ms. Duckworth. Did I hear correctly that you don't plan on 
going back and reimbursing the families for the money that 
they're out of pocket?
    Ms. Hoehne. Ma'am, what would happen is the Army Emergency 
Relief will give the families loans----
    Ms. Duckworth. No, no, no, no, no, no, no. Not loans. Are 
you going to reimburse them for the money that you were 
supposed to pay for them but you screwed up and didn't pay and 
now they're out of pocket?
    Mr. Badorrek. Yes, they are paid the proper amount from the 
day that they applied and should have been paid. So it--the 
delay in processing, the action will not impact the amount of 
money they paid.
    Ms. Duckworth. So they'll get their money back?
    Mr. Badorrek. They will.
    Ms. Duckworth. Will they get their money back with 
interest? I mean, you're asking for a loan from them. Right? 
They're carrying you on their family finances.
    Mr. Badorrek. No. They would not get interest.
    Ms. Duckworth. So basically you're screwing the soldiers. 
No? Would you like to give a loan? I know you inherited this 
so----
    Mr. Badorrek. I mean, my goal is to fix the problem so that 
everybody is paid on time.
    Ms. Duckworth. Okay. Well, they're not being paid on time.
    Mr. Badorrek. Yes.
    Ms. Duckworth. So they're not being paid on time. What are 
you going to do to fix it? And what are we going to do to make 
sure that they get their money back with interest?
    Do I need to ask my fellow Members of Congress to hold a 
bake sale? Do we need to go on the air and bring this to the 
general public and embarrass the Army and--what do we need to 
do? Because these fine Americans deserve better, and their kids 
deserve better.
    I'm going to stay on this. I am sure I have friends across 
the aisle who will work with me on this. In fact, The Mom Act 
that was supposed to bring--give child care--maternity leave to 
military women up to 12 weeks had 20--over two dozen Republican 
cosponsors. This is not a partisan issue. This an issue of 
doing right by our military. These are men and women who are 
willing to die for this Nation. And yet we exploit them and 
exploit their children. And that's not acceptable.
    Thank you. I yield back.
    Chairman Chaffetz. Thank the gentlewoman.
    I now recognize the gentleman from North Carolina, Mr. 
Meadows, for 5 minutes.
    Mr. Meadows. Thank you, Mr. Chairman. And thank you for 
holding this hearing.
    I must confess this was not an issue that I thought we had 
a problem with until I started reading about this hearing, and 
then I started talking to some of my staff, and they said not 
only is it a problem, but it's an unbelievable problem. And so 
on behalf of the United States, my apologies to the families 
who have been affected. And truly we do need to make it right, 
and with interest.
    You know, I agree. I mean, they should not be the 
government's bank. And that's what we've essentially made these 
fighting men and women's families, the bank for our 
inefficiency. So I know we're making progress and a lot has 
been said about the progress we're making.
    I want to turn back a little bit. Who made the decision and 
why was it such a surprise that we were going to have GSA's 
improper handling of this? Colonel, do you know? I mean, 
because obviously there are two decisions. One is to save 
money, which this did not do. But there's also the political 
ramification. Well, let's take it from the private sector. 
We'll make it part of this agency. We'll grow the agency. 
Sometimes those factors play in. So who thought that the GSA 
could do a better job than the private sector at administering 
this? Colonel?
    Ms. Hoehne. Sir, I don't have the information on who 
specifically made the decision. It was in August of 2013 before 
I arrived at Installation Management Command. But I understand 
the logic of the looking at the financial benefit of doing it. 
And it was--there was, my understanding, no thought of giving 
GSA unnecessary benefit in growing them. It was the knowledge 
that GSA was already successfully executing the program and 
their willingness----
    Mr. Meadows. Executing a different program with far less 
people?
    Ms. Hoehne. --of the program. Yes, sir. So we knew that 
they understood----
    Mr. Meadows. What percentage were they executing 
effectively?
    Ms. Hoehne. Ten to fifteen percent, sir.
    Mr. Meadows. Okay. And so the best logistics group in the 
world, as some would say, the Army is some of the best 
logistics folks in the world, made a logistical decision that 
affected families, but they were wrong. You know, to put it in 
another vernacular, it would be like having a tank out on the 
battlefield with no gasoline to make it work. Was it GSA that 
messed up, or was it the Army?
    Ms. Hoehne. Sir, it was both of us. It was our lack of due 
diligence in ensuring that GSA was ready to take on the 
mission, and it was staffing problems on GSA that they didn't 
bring up to us.
    Mr. Meadows. Okay. But we keep coming back to staffing 
problems. And that's like asking a florist if they were 
surprised with Valentine's Day coming and they didn't have 
enough flowers. I mean, it just doesn't make sense. You knew 
how many people were there, so why would they have been 
surprised at the processing? GSA, do you want to answer that? 
Why were they surprised?
    Mr. Badorrek. Why was GSA surprised?
    Mr. Meadows. Yeah. I mean, why the big backlog? I mean, if 
you're so efficient at it, why would you be surprised?
    Mr. Badorrek. So I could speculate on that. I was not 
there, but I think they probably underestimated the number of 
providers.
    The other thing that I would tell you is if you're going to 
save money from the prior vendor, you have to have better 
systems or lower cost of labor, and I think----
    Mr. Meadows. And do you have better systems and lower 
costs?
    Mr. Badorrek. I don't--I don't know--I know that our 
systems were not good and GSA underestimated what----
    Mr. Meadows. But today, I'm mean, you're looking backwards, 
obviously you've looked at that, do you have better systems and 
lower costs providers? Yes or no.
    Mr. Badorrek. I do not know what the other vendor had, but 
we do not have a system that was adequate.
    Mr. Meadows. So you don't even know today whether you were 
going to be more cost efficient or not. So it just sounds like 
that we messed up but we really don't know why we messed up, 
and so potentially we could mess up again.
    Mr. Badorrek. No. GSA has implemented a system to handle 
the application processing that is now in place that was put up 
quickly. It will help us deal with the backlog going forward 
but----
    Mr. Meadows. Okay. We have a backlog. So let me, in the 24 
seconds I have remaining, what would be the problem of paying 
all of the invoices and relying on the military men and women 
to be men and women of integrity, who I believe they are, and 
say: Golly. We may have made a mistake. It couldn't have been 
any bigger a mistake paying all the invoices and just getting 
them paid at this point than the $8.4 million mistake that 
obviously we've just made.
    Why don't we just go ahead and pay them? Cut the check in 
30 days to everybody. Eliminate the backlog.
    Ms. Hoehne. Sir, that's essentially what we have directed 
GSA to do is, when there are discrepancies, pay the amount that 
you know is--was right, or pay the amount that you paid last 
month, and then worry about the----
    Mr. Meadows. So if you've directed them to do that, GSA, 
are you going to be able to pay everybody in 30 days and so men 
and women are not going to have to worry about bad credit or 
bankruptcy or child--are you going to pay it all in 30 days? 
They've instructed you, is what Colonel just testified.
    Mr. Badorrek. Yes. We are going to pay----
    Mr. Meadows. So the backlog will be gone in 30 days.
    Mr. Badorrek. We have a backlog of applications, but the 
backlog of invoices will be significantly improved with this 
policy change.
    Mr. Meadows. ``Significantly improved'' is not all paid. 
Can you pay them in 30 days?
    Mr. Badorrek. We can pay them in 30 days, yes.
    Mr. Meadows. Will you pay them in 30 days? Do I have your 
commitment today?
    Mr. Badorrek. Yes. We will pay them.
    Mr. Meadows. All right. Thank you.
    I yield back.
    Chairman Chaffetz. Thank the gentleman.
    I now recognize the ranking member of the full committee, 
Mr. Cummings of Maryland, for 5 minutes.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    To the panel and to the committee, I'm sorry. I had some 
other pressing matters this morning. But I have kept up with 
the hearing.
    Captain Dyches and Ms. Hensley, I want to thank you both 
for being here today and for the sacrifice you and your 
families make for this country. I recently held a forum with 
women in the military, and the number one issue that they 
brought up was child care. And that the problem with trying to 
pursue a career and quite often having to be called into some 
type of duty sometimes on short notice and not--and worrying 
about their kids.
    We spent a lot of time today listening to the Army and GSA 
explain what was went with the childcare assistance program, 
but we can't forget that the program's mismanagement has real 
life consequences that our military families suffer. Two of 
those families are represented today, and it's important to 
hear directly from them.
    Now, Ms. Hensley, let me start with you. Your husband is an 
Army sergeant. Is that right?
    Ms. Hensley. Yes, Ranking Member Cummings.
    Mr. Cummings. And in your written statement, you note that 
you enrolled your daughter in the program on July 14, 2014, but 
once GSA took over, you had to resubmit your application and 
materials, and GSA required different materials than what you'd 
previously submitted. Is that right?
    Ms. Hensley. Yes, Mr. Ranking--or yes.
    Mr. Cummings. That caused your application resubmission to 
be delayed. Is that right?
    Ms. Hensley. Yes.
    Mr. Cummings. Now once you resubmitted the application, you 
waited for well over a month before GSA informed you that it 
had been received. Is that correct?
    Ms. Hensley. Yes.
    Mr. Cummings. In fact, your husband emailed GSA on 
September 17, 2014, saying, ``I need to know how much longer 
this is going to take. I'm barely able to afford my daughter's 
day care. I will have to pull her out soon if I do not get 
answers.''
    Approximately how long after that email did it take before 
you finally received the first childcare subsidy payment?
    Ms. Hensley. I believe when we emailed them they emailed us 
back within 2 days, and it took them a month--or after--it took 
them a month because they told us that they received our 
application in August, and here it was September 19. So they 
never told us that they received any application. From there, 
we ended up getting our pay. It was in November.
    Mr. Cummings. So that's quite a while. Isn't it?
    Ms. Hensley. Yes.
    Mr. Cummings. And you needed that money. Is that right?
    Ms. Hensley. Absolutely.
    Mr. Cummings. Badly.
    Ms. Hensley. Yes.
    Mr. Cummings. So from July 2014, when you first applied for 
the program, to November 2014, your family received no 
childcare fee assistance. What impact did that have on your 
family?
    Ms. Hensley. We were put in a situation where we had to 
actually ask our family for money. It was the most stress that 
I think I have ever had to endure in my life, not knowing if 
you're going to be able to afford diapers for your child. It 
was very heartbreaking, the things that we had to do to make 
sure our child was able to continue to be in day care because 
not only was it about the day care, but I was within a few days 
from putting in my two weeks' notice from my job.
    Mr. Cummings. Wow. Captain Dyches, your family experienced 
similar delays in awaiting childcare fee assistance. You told 
NBC that childcare subsidies for your daughter was delayed up 
to 3 months. Is that right?
    Ms. Dyches. Yes, Ranking Member Cummings.
    Mr. Cummings. And what impact did that have on your family?
    Ms. Dyches. Monetary resources were severely depleted. We 
weren't able to pay for student loans that we were trying to 
pay off. We had to put lots of things on hold in order to pay 
for the day care that--unexpected day care costs, basically
    Mr. Cummings. So then I assume that you were putting off 
paying certain things that needed to be paid. And then a lot of 
people don't know how that works, but you get on a slippery 
slope, and just trying to pay Paul, but Peter doesn't have any 
money so you're just struggling. Is that right?
    Ms. Dyches. Yes, Mr. Cummings.
    Mr. Cummings. And these next questions are to either one of 
you. Has the situation improved?
    Ms. Hensley. As of November of 2014, we have not had a 
problem with the GSA.
    Mr. Cummings. And you, Ms. Dyches?
    Ms. Dyches. My issues are ongoing. Twice we were delayed up 
to 3 months on payments, and currently we are trying to figure 
out how the payments are being calculated and why once my 
daughter turns 2 the GSA receives a significant decrease in the 
amount that they have to paid while we retain the exact same 
amount that we pay, while the Hensley family actually received 
opposite news, that once their child turned 2 they received a 
discount.
    So everybody kind of gets a discount, but that wasn't our 
case. And no one has been able to explain to me how it's 
calculated, why it's calculated, why there a difference in 
change. Yeah. There's still ongoing issues.
    Mr. Cummings. Now, Mr. Badorrek, I understand that you 
testified under oath that any families that were forced to pay 
funds out of their own out of pocket will be fully reimbursed 
for what they would have been due under the program. Is that 
right?
    Mr. Badorrek. Yes.
    Mr. Cummings. Say it loud. I want to make sure I hear you.
    Mr. Badorrek. Yes. That's correct.
    Mr. Cummings. And, Captain Dyches, did you hear what he 
just said?
    Ms. Dyches. Yes, I did.
    Mr. Cummings. Ms. Hensley, did you hear what he just said?
    Ms. Hensley. Yes, I did.
    Mr. Cummings. Okay. I want to come back to us and let us 
know that this has--this has not happened yet. Is that right, 
Ms. Dyches?
    Ms. Dyches. I have been paid up to July. So I'm waiting--
they--we've been told that they're always going to be a month 
behind in payments. That wasn't the case before the GSA took 
over our contract. But we've been told that we will always be a 
month behind. Or that the GSA will be.
    Mr. Cummings. As I close, did you have a comment, Ms. 
Hensley?
    Let me be clear that if you fail to get a dime, I want you 
to let us know. Okay? And we will do everything in our power to 
make sure you get what you deserve. Okay?
    Ms. Dyches. Thank you, Ranking Member Cummings.
    Mr. Cummings. Thank you.
    Thank you, Mr. Chairman.
    Chairman Chaffetz. Thank you. And we do want to follow up 
with you. It wasn't for a lack of personnel. There was nearly 
190 people at the GSA working on this. And yet there were less 
than 40 that were working on it prior under Child Care Aware. I 
think one of the screw-ups, one of the messes, had to do with 
software and systems that were undervalued. One of the big 
stories that we're trying to follow and track down in overall 
government is--since I was able to take office, since President 
Obama took office, the Federal Government has spent in excess 
of $525 billion on IT, and it doesn't work.
    Chairman Chaffetz. And so even though there are millions of 
dollars potentially that was thrown in to try to duplicate what 
Child Care Aware was able to do with their software programs, 
that was never valued. And so what you find is that they were, 
GSA was dealing with an Excel spreadsheet and trying to do this 
by hand and they could never keep up.
    The subcommittee chairman of a new subcommittee that we 
created this year is Mr. Hurd of Texas who is helping to 
spearhead this, he understands IT, working closely with Mr. 
Lieu and others to try to tackle the software portion of this. 
We're now pleased to recognize Mr. Herd. Because I think at the 
heart of the ability to leverage people, dollars, talent, was 
the fact that GSA never had a plan that was adequate to deal 
with the systems to automate this and to try to go through with 
thousands of invoices, maybe $300, maybe $1000 at a time, the 
thing fell apart. It got behind. It compounded. And it 
continued to grow in its problems.
    I'm now pleased to recognize the gentleman from Texas, Mr. 
Hurd.
    Mr. Hurd. Thank you, Mr. Chairman. And I want to start off 
in joining all of my colleagues in thanking you, Ms. Hensley, 
for showing up here today and shedding light on this problem. 
You shouldn't have to be here to be frank. This is something 
that we should be doing. It should happen. A lot of stuff that 
we deal with up here in Washington, D.C. I would categorize, 
and it's unfortunate, but being able to fight the bureaucracy 
for people that need it fought, I think that's like 95 percent 
of our job. So thank you for being here today.
    I wasn't in the military but I served in the CIA and I 
served alongside the men and women in the uniform in rough 
places like Pakistan and Afghanistan. And I recognize the 
pressures on families. And sometimes that's forgotten. So thank 
you for being here today. And I apologize that you actually 
have to be here today. It appears that the Army and GSA 
determined that it would not use a software program that may 
have been more effective than what was ultimately used by the 
Army and the GSA. And my first question is to you, Mr. 
Badorrek, when did you join the----
    Mr. Badorrek. My start date was December 29th, 2014.
    Mr. Hurd. December 2014. So why did--and you may know the 
answer and, Colonel Hoehne, you may know this, why did the Army 
decide not to use the software provided by the previous program 
administrator? Anyone?
    Ms. Hoehne. Sir, I'm not sure of the answer. I would like 
to take that so I can get you an accurate answer to that.
    Mr. Hurd. Interesting. The committee has also learned from 
a number of sources that the Army may have invested almost $3 
million into software that was used from the previous 
providers. Are you aware of this?
    Ms. Hoehne. No, sir.
    Mr. Hurd. Three million dollars is a lot of money for a 
software program. I think we could have paid all the childcare 
fees with that $3 million instead of wasting it on some IT 
system. And how many applications are we actually processing?
    Mr. Badorrek. We are processing about 1600 a month right 
now.
    Mr. Hurd. Sixteen hundred a month. Does that need $3 
million to--$3 million, that's not an inordinate large number. 
We're not talking about a big data problem here. So my question 
is, so you don't know why the previous software that was 
obviously working, right, because we weren't having these 
problems prior to GSA taking this over.
    So we have a software system that is supposed to help 
increase efficiencies, that was working, we decide not to use 
it, we put $3 million into it, and now we're going with 
something else. What's the plan on how to process these 
applications in the future.
    Mr. Badorrek. GSA has switched to Salesforce software to 
process these applications.
    Mr. Hurd. And how much are we spending on that?
    Mr. Badorrek. We spent $400,000 on that.
    Mr. Hurd. Do you foresee any future problems with having 
Salesforce manage 1600 applications a month?
    Mr. Badorrek. No. Salesforce will enable us to process the 
applications more efficiently. The prior system did not work 
effectively.
    Mr. Hurd. How long does it take to process an application 
using Salesforce?
    Mr. Badorrek. It depends on whether you have the workers 
there. But you can process--you have to evaluate the 
application. But Salesforce doesn't have the limitations----
    Mr. Hurd. Most of our Members' offices are processing 
thousands of pieces of mail, snail mail a week. And to say that 
you can't process 1600, that you don't have enough people to 
process 1600 applications in a month? How many people do you 
think you need?
    Mr. Badorrek. It's hard to say. We have a huge backlog 
right now. I would think we would need in the neighborhood of 
70 to 80 people.
    Mr. Hurd. How many?
    Mr. Badorrek. Seventy.
    Mr. Hurd. Seventy people?
    Mr. Badorrek. You know, I really don't know. I'm guessing. 
My focus has been on getting the number of people in place and 
the tools in place to reduce the backlog.
    Mr. Hurd. So 1600 divided by 70 is what? Can anybody do the 
quick math? Ted Lieu, you're a smart guy.
    Mr. Badorrek. But you also have to process 12,000 payments 
a month. You have 300 emails coming in a day, 400 phone calls a 
day today. Obviously, when we can----
    Mr. Hurd. That sounds like a congressional office and we 
have 23 people that staff that. So please get back to us on why 
the decision was made not to use the previous software that we 
invested $3 million which would have probably paid for all the 
health care that these men and women of our military could have 
used to pay for their child care.
    This is, you know, the Federal Government is spending over 
$80 billion a year and 80 percent of it is on legacy systems. 
To me, this is just, this is outrageous that we're not using 
tools at our fingertips to make us more efficient.
    I have exceeded my time. And, again, Ms. Hensley, please 
tell your friends thank you for what they do. And, Captain 
Dyches, thank you for your willingness to appear before us. I 
know the difficulty that you all are both in. Many people here 
that you've got to talk to today understand your plight. And 
we're here to fight for you.
    Thank you. And I yield back, Mr. Chairman.
    Chairman Chaffetz. I thank the gentleman. I now recognize 
myself for another round. We're very--you've given--the GSA has 
given us such a wide variety of numbers. We asked if there are 
only 9,000 to 10,000 families in the program, why is the GSA 
receiving 12,000 invoices a month. Maybe there are a variety of 
different children. But can you provide us more specificity?
    Mr. Badorrek. Yes. The reason it's more than the 9,000 is 
there's a separate invoice for each child.
    Chairman Chaffetz. Okay. And part of--our office receives 
roughly 10,000 emails and letters per month. Every one of them 
gets a response. And we do this with just a handful of people. 
Captain Dyches, what is the monthly cost, childcare cost?
    Ms. Dyches. A thousand two hundred.
    Chairman Chaffetz. And for Ms. Hensley, how much?
    Ms. Hensley. About $1200.
    Chairman Chaffetz. You can see the pressure on families in 
trying to float this. I still want to have an answer at some 
point on how we're going to make these people whole. The Army, 
somewhere between the Army and GSA, there's going to be credit 
monitoring services that are offered, correct?
    Mr. Badorrek. That's correct.
    Chairman Chaffetz. What is the cost of that?
    Mr. Badorrek. That cost is about $200,000.
    Chairman Chaffetz. So that $200,000 expenditure for credit 
monitoring, why are you doing the credit monitoring?
    Mr. Badorrek. We had a PII----
    Chairman Chaffetz. A what?
    Mr. Badorrek. We had a PII breach. And we offered credit 
monitoring to all----
    Chairman Chaffetz. Without the acronym, what was that?
    Mr. Badorrek. The privacy information of the families 
were----
    Chairman Chaffetz. Why did you have a data breach?
    Mr. Badorrek. In our attempt to get contractors set up and 
able to do work and support the families, we started training 
them and set up PCs. They should not have seen any personal 
information for families. It turns out that we had a couple--
some of the contractors that did.
    Chairman Chaffetz. So you violated your own policy, allowed 
contractors to see personal identifying information. And some 
of those contractors had some nefarious backgrounds, correct?
    Mr. Badorrek. Yes, they did not pass the final background 
clearance.
    Chairman Chaffetz. So prior to passing a background test, 
you went ahead and took these young children, their families, 
members of our military, and you allowed them access to all 
their personal information that was submitted, correct? How 
many families were affected?
    Mr. Badorrek. We believe that they saw the information on 
about 200 families.
    Chairman Chaffetz. And that expanded though, there was a 
breach of how many people? How many families? It's larger than 
200.
    Mr. Badorrek. Are you talking about the 8,000 in the IG 
report?
    Chairman Chaffetz. Yes.
    Mr. Badorrek. Yes.
    Chairman Chaffetz. There was a second data breach that you 
allowed to happen. How many people were involved in that?
    Mr. Badorrek. That was a vulnerability.
    Chairman Chaffetz. Yes.
    Mr. Badorrek. When we installed the Salesforce software, 
there were other GSA employees that used that software that 
conceivably could have accessed the Army information. We had no 
evidence that they did. It was----
    Chairman Chaffetz. But you couldn't tell. I mean, people 
get online and go look at it, right? And that affected how many 
people?
    Mr. Badorrek. They would have to know the email of the----
    Chairman Chaffetz. It's not hard to figure out. So enough 
so that you're spending hundreds of thousands of dollars in 
credit monitoring. We had a person who had a warrant out for 
their arrest and that information included data such as, you 
know, where the child, where the children were, their childcare 
providers. I mean, these are United States military. We got a 
lot of people out here who want to do harm to these good 
people. And you're going to offer credit monitoring? Anything 
else?
    Mr. Badorrek. No. We offer credit monitoring to families.
    Chairman Chaffetz. How do you have--has anybody been fired?
    Mr. Badorrek. We have replaced the top tier management. No 
one has been fired.
    Chairman Chaffetz. To the point that was brought up by Mr. 
Mica, you're going to provide us a list of the people who were 
involved and engaged in this process, including their 
compensation and any bonuses that they've had, correct?
    Mr. Badorrek. Correct.
    Chairman Chaffetz. When will you provide that information?
    Mr. Badorrek. I believe I can provide that in a week.
    Chairman Chaffetz. One of the great frustrations here is 
that people make mistakes. I get that. But this is not a simple 
mistake. You're violating policy and there doesn't seem to be 
any consequence to that. If somebody in the military knowingly, 
willingly violates policy, they could very well be terminated. 
There are lots of other disciplinary things that could happen 
to them. But in the Federal Government, at the GSA--you know, 
they're overwhelming good people, they're good, hard-working, 
decent, patriotic people. But they do a good job. And they 
abide by the rules. You set up the rules. You have a couple of 
data breaches. You make a multimillion-dollar mistake, it 
affects tens of thousands of people. And is anybody 
disciplined?
    Mr. Badorrek. No one has been disciplined.
    Chairman Chaffetz. No one has been disciplined? It just 
continues on. Ms. Hoehne, I am glad that Child Care Aware is 
evidently going to come in and try to help save the day. When 
did you first contact Child Care Aware?
    Ms. Hoehne. Sir, it was this month.
    Chairman Chaffetz. It was this week, wasn't it?
    Ms. Hoehne. Yes, sir.
    Chairman Chaffetz. It was this week. Now, I'm glad we're 
having a hearing. I'm glad that that's putting a spark under 
you. But when you get an IG report and you know that there are 
people in trouble, that should have provided the spark.
    And when you got a second IG report saying the problem has 
doubled, that should have provided the spark. We can't hold 
enough hearings to get enough spark under people to actually 
take the action. I'm glad that you're doing it. I agree with 
Mr. Russell that, I appreciate that you're owning up to this. 
But not only did we get behind on payments, we did data 
breaches, we provided access to information that should never 
have been there. Nobody gets disciplined. Nobody is held 
responsible.
    And I think the problem is actually bigger than $8.4 
million because now we have credit monitoring that's going to 
have to go on. You just don't just do that for 4 months. That's 
going to have to go on for years. And the people that get left 
out of this, Ms. Hensley, Captain Dyches, their families, and 
thousands of others, their credit gets screwed up. How are you 
going to fix that? It's one thing to have credit monitoring. 
But if you credit score goes way down, your cost of money and 
access to capital, your ability to go out and finance a home 
and go buy furniture and do whatever else, to be able to go out 
and get cable television, for goodness sake, they're going to 
look at your credit score and say you screwed up.
    I would really challenge you both please to come up with 
something, I don't know if it's a letter, we were talking about 
this, is there a letter that you can provide that they can 
share with creditors to say this wasn't our fault? It was the 
United States military's fault. It was the Army's fault. 
Something like that. I'm struggling with a solution to try to 
figure out how to help these families because they were put in 
a precarious position that they should have never been put 
into. I'm open to ideas and suggestions.
    I do think we need to look at the software issue. I do want 
to have a more specified number. I think this is a government-
wide problem. I don't think this is specific to the GSA. I 
don't think it's specific to the Army. I don't think it's 
specific to the Pentagon. I think it's government wide. I think 
we could pick apart any department and agency and we would see 
how software has screwed up their lives. I don't know how you 
spend $400,000 on Salesforce.com to process 12,000 or so 
applications. They're a good company, very successful. Maybe I 
don't understand their pricing schemes. But, my goodness, 
there's got to be a better, smarter way of doing this.
    I now recognize Mr. Lieu for whatever comments he might 
have.
    Mr. Lieu. Thank you, Mr. Chair. I want to follow up on this 
unauthorized access to private information. There were two 
incidents. In the February incident, about 12 families were 
affected according to the inspector general. The GSA then 
implemented new policies to prevent a repeat of the incident, 
including increased training, document tracking, eliminating 
the option for teleworking. Mr. Badorrek, is that correct? 
After the first incident, you guys put in these new procedure?
    Mr. Badorrek. Yes. That's correct.
    Mr. Lieu. And then the IG report 4 months later, 200 GSA 
employees had access to sensitive information of 8,000 
additional families. So how did the GSA put in all these new 
training programs and have a far worse problem 4 months later? 
How did that happen?
    Mr. Badorrek. That was not related to contractors. That was 
a software change. It was not deemed a breach but a 
vulnerability. There were 200 GSA employees that already had a 
level of clearance that conceivably could have accessed this 
information. It is very likely that they did not. But they were 
already working for GSA, had clearance. And they should not 
have been able to figure out how to access the Army families. 
We don't believe that any did. But they could have. And that 
was a fix that we had to do to our software.
    Mr. Lieu. What is the GSA doing to make sure this doesn't 
happen again in the future in terms of unauthorized access to 
private information?
    Mr. Badorrek. Our IT organization has made a mistake. They 
have procedures in place. They've checked all the things around 
the Salesforce applications to make sure that there's no other 
potential problems. And they fixed the problem in less than 24 
hours.
    Mr. Lieu. Are GSA contractors now required to complete 
initial background investigations before being granted access 
to the sensitive information of military families?
    Mr. Badorrek. What was your question, sir?
    Mr. Lieu. Are GSA contractors now required to complete 
background investigations?
    Mr. Badorrek. Yes. They're required to receive initial 
clearance background investigation through OPM.
    Mr. Lieu. Do you think that GSA has sufficient safeguards 
now in place to make sure that this doesn't happen again?
    Mr. Badorrek. I can't guarantee that. I know that we do 
have safeguards in place.
    Mr. Lieu. I do agree with the chair that I think this is a 
government-wide problem. It seems like every 2 months in this 
hearing room we hear about data breaches and unauthorized 
access to private information. And then credit monitoring, 
that's just not acceptable. And so I think our Federal 
Government as a whole needs to do far better in terms of cyber 
security and making sure that unauthorized access doesn't 
happen.
    Let me just maybe put sort of out there what I heard under 
oath today. I heard under oath that the GSA is going to clear 
the invoice backlog within 30 days and make payment on those 
invoices. I also heard under oath that the GSA and the Army is 
going to submit a plan within a week to this committee on how 
to go forward and make sure this doesn't happen again on a 
going-forward basis.
    I also heard under oath that the Army and GSA are going to 
see if anyone should be disciplined for this fiasco. And I also 
heard under oath that military families who have had to make 
payment out of pocket will also be fully reimbursed for those 
payments.
    I thank you for your testimony under oath. And look forward 
to having this problem fixed.
    Chairman Chaffetz. Thank the gentleman. One last thing, Mr. 
Badorrek, now that it's come to light that there are some 4,000 
voicemails that were purposefully deleted and that there are an 
untold number of emails that were deleted, what are you going 
to do?
    Mr. Badorrek. We have a record of the 4,000 emails. We have 
looked at all--4,000 voicemails, I'm sorry. We have a record of 
the 4,000 voicemails. We have gone through every one of them. 
While the voicemails themselves were not kept, we have a 
separate log that we used to call those back. We have looked at 
the 4,000, looked at how, identified how many have already 
talked to us, had issues resolved, how many were duplicates. 
There are a little over 2,000 remaining on that list. GSA is 
going to call back those 2,000 voicemail messages.
    Chairman Chaffetz. What about the emails?
    Mr. Badorrek. The emails I need more information on. And I 
will get that.
    Chairman Chaffetz. Ms. Ochoa, can you give us any insight 
into the deleted emails and deleted voicemails?
    Ms. Ochoa. We have more information on the voicemails than 
on the emails. What we were told, what we learned through the 
review was that between December and June, there had been a 
backlog that had accumulated of 5,100 voicemails. The content 
of all of those voicemails we were told was deleted. The log 
that was kept was of the numbers associated with the 
voicemails.
    For a time, GSA program staff were calling back some of the 
numbers on that log, but found that it was taking them over 31 
days on average to get through that part of the backlog. And 
when they got to about 4,000 numbers associated with voicemails 
left, they decided not to return those calls. It's new 
information to me today that they've been since now calling 
some of those numbers.
    Chairman Chaffetz. Is that right? Are you actually calling 
those people back?
    Mr. Badorrek. No. We are going to call those numbers. The 
4,000--at the time this happened, we set up a new call center 
operation. We were able to answer over 90 percent of the calls 
versus 30 percent before. It is new information to the IG. But 
that was yesterday that we took those numbers, identified them, 
identified how many had already called back or how many we had 
talked to. And we now know how many we need to call back. And 
we will do that.
    Chairman Chaffetz. So you have good military families, 
people like Captain Dyches and Ms. Hensley and their husbands 
or wives or whoever it is calling and asking for help. Somebody 
made a decision to say we're not doing that anymore. Somebody 
made a decision that we're just going to delete those, erase 
them and move on. And there's Federal law, we believe this 
falls under the Federal Records Act.
    One of the answers that I would hope you would have is you 
are going to make communication with the archivist as required 
by Federal law to try to recover this information, make note of 
it. I also think you need to communicate and work with the 
inspector general because Federal employees are not allowed to 
just simply go out and erase Federal records. We're dealing 
with this on a couple different fronts. Are you going to work 
with the IG on this?
    Mr. Badorrek. I will work with the IG on this.
    Chairman Chaffetz. They'll have full cooperation with the 
GSA as she and the rest of her staff look at this?
    Mr. Badorrek. Yes. We will cooperate fully with the IG.
    Chairman Chaffetz. Thank you. I do appreciate it. Listen, 
we've got a lot of good men and women who serve this country. 
They deserve better. I think that has been exemplified here 
over the last 2 1/2 hours through this hearing.
    We do need an action plan for moving forward. We are not 
only the Oversight Committee, we're also the Government Reform 
Committee. So we can highlight, put a spotlight, a big bright 
shiny light on things. But then we also want to get to the 
reform part of it. And I think Mr. Lieu and I and others on 
this panel desperately want to be helpful in that part of the 
solution.
    Again, I will say, I've said many times, we want to find a 
way to help make these people whole. Because the harm that 
they've had at no cause of their own has not just been oh, they 
need ongoing credit protection. But you've harmed their credit 
scores. You've hurt familial relationships, people who have had 
to loan money. And in some cases, it's gotten so desperate that 
some people have had to actually file bankruptcy because they 
got so behind and they just decide to put it on a credit card 
and then there's interest charged. And the next thing you know, 
you're paying 20 percent on your cash flow. And they shouldn't 
be put into that situation. So we need help on that solution as 
well.
    We appreciate the spirit, particularly, Ms. Hoehne and Mr. 
Badorrek, in which you've testified today. It's been a good, 
candid, I think, discussion. And we appreciate your candor 
here.
    To Ms. Ochoa and your staff, you have hundreds of people 
that work in the inspector general's office. We thank them for 
their good hard work. And they spend sometimes years working on 
projects, and then we have a hearing. But we appreciate their 
good work. You've shed light on something. We do appreciate the 
good work of Channel 4, the NBC affiliate here in Washington, 
D.C., because it sparked a lot of action, quite frankly, here 
in Congress. It sparked action in helping to solve individual 
problems. And that has been good work.
    And to Ms. Dyches and Ms. Hensley, I hope at some point we 
get to meet your 2 year-old daughters. We thank you for taking 
time, all four of you, your husbands are here, taking time away 
from work that has its costs unto itself. But the candor and 
being courageous enough to step forward and shedding light on 
this problem. I know there are thousands of families who are 
very grateful that you represented them here today. So with 
that, this committee stands adjourned.
    [Whereupon, at 11:26 a.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
               
               
               
               
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]              
               
               
   

                                 [all]
</pre></body></html>
